<html>
<title> - PUBLIC TRANSIT SAFETY: EXAMINING THE FEDERAL ROLE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
           PUBLIC TRANSIT SAFETY: EXAMINING THE FEDERAL ROLE

=======================================================================


                                (111-80)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            December 8, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure



                  U.S. GOVERNMENT PRINTING OFFICE
53-951                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California

                                  (ii)



                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
BOB FILNER, California               THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              JERRY MORAN, Kansas
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          HENRY E. BROWN, Jr., South 
MICHAEL H. MICHAUD, Maine            Carolina
BRIAN HIGGINS, New York              TIMOTHY V. JOHNSON, Illinois
GRACE F. NAPOLITANO, California      TODD RUSSELL PLATTS, Pennsylvania
DANIEL LIPINSKI, Illinois            BILL SHUSTER, Pennsylvania
MAZIE K. HIRONO, Hawaii              JOHN BOOZMAN, Arkansas
JASON ALTMIRE, Pennsylvania          SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
HEATH SHULER, North Carolina         JIM GERLACH, Pennsylvania
MICHAEL A. ARCURI, New York          MARIO DIAZ-BALART, Florida
HARRY E. MITCHELL, Arizona           CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  CONNIE MACK, Florida
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
LAURA A. RICHARDSON, California      CANDICE S. MILLER, Michigan
ALBIO SIRES, New Jersey              MARY FALLIN, Oklahoma
DONNA F. EDWARDS, Maryland           VERN BUCHANAN, Florida
GENE TAYLOR, Mississippi             ROBERT E. LATTA, Ohio
LEONARD L. BOSWELL, Iowa             AARON SCHOCK, Illinois
RICK LARSEN, Washington
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan, Vice 
Chair
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)



                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Chipkevich, Robert J., Director, Office of Railroad, Pipeline and 
  Hazardous Materials Investigations, National Transportation 
  Safety Board...................................................    44
Clark, Richard W., Director, Consumer Protection and Safety 
  Division, California Public Utilities Commission...............    44
LaHood, Honorable Ray, Secretary, U.S. Department of 
  Transportation; Accompanied by Peter Rogoff, Administrator, 
  Federal Transit Administration.................................    18
Millar, William W., President, American Public Transportation 
  Association....................................................    44
Siggerud, Katherine A., Managing Director, Physical 
  Infrastructure, U.S. Government Accountability Office..........    44

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Mitchell, Hon. Harry E., of Arizona..............................    63

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Chipkevich, Robert J.............................................    64
Clark, Richard W.................................................    73
LaHood, Honorable Ray............................................    90
Millar, William W................................................   105
Siggerud, Katherine A............................................   112

                       SUBMISSIONS FOR THE RECORD

DeFazio, Hon. Peter A., a Representative from the State of 
  Oregon, ``Rail Transit State Safety Oversight Program - 
  Existing State Powers,'' Majority Staff for the Committee on 
  Transportation and Infrastructure, chart.......................    16
Mica, Hon. John L., a Representative from the State of Florida, 
  ``Minority Staff Analysis of Rail Transit Safety,'' Minority 
  Staff for the Committee on Transportation and Infrastructure, 
  report.........................................................     4
LaHood, Honorable Ray, Secretary, U.S. Department of 
  Transportation; Accompanied by Peter Rogoff, Administrator, 
  Federal Transit Administration:................................
      Data.......................................................    40
      Responses to questions from Rep. Mica, a Representative in 
        Congress from the State of Florida.......................    95

                        ADDITIONS TO THE RECORD

MINI, LLC, Arun Vohra, P.E., President, written testimony........   129
[GRAPHIC] [TIFF OMITTED] 53951.001

[GRAPHIC] [TIFF OMITTED] 53951.002

[GRAPHIC] [TIFF OMITTED] 53951.003

[GRAPHIC] [TIFF OMITTED] 53951.004

[GRAPHIC] [TIFF OMITTED] 53951.005

[GRAPHIC] [TIFF OMITTED] 53951.006

[GRAPHIC] [TIFF OMITTED] 53951.007



      HEARING ON PUBLIC TRANSIT SAFETY: EXAMINING THE FEDERAL ROLE

                              ----------                              


                       Tuesday, December 8, 2009,

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:00 a.m. in 
room 2167, Rayburn House Office Building, the Honorable Peter 
DeFazio [chairman of the Subcommittee], presiding.
    Mr. DeFazio. The Subcommittee will come to order.
    I appreciate the Secretary and the FTA Administrator being 
here this morning. I will keep my opening remarks brief.
    The issue before us is transit safety. The Administration 
has a proposal for the first time in some 45 years to revisit 
significantly the degree of Federal involvement and/or 
oversight in transit safety. We will look forward to hearing 
that presentation.
    I think one thing looms over this issue that also needs to 
be addressed. It is an ongoing and constant source of concern 
of the Subcommittee. It is the level of investment in our 
infrastructure or lack thereof. You can't look at transit 
systems nationwide with more than $60 billion of deferred 
maintenance and capital needs and say that some of our safety 
problems aren't due to the fact that we are running decrepit 
equipment.
    One of the big solutions here for dealing with the problem 
with the trains here in the Washington, DC metropolitan area 
was to put the most outmoded and worse cars in the middle and 
have some of the ones that are only senescent or obsolescent on 
either end because they still kind of work and are in better 
shape than the really ancient, antique ones in the middle that 
are past their date for replacement. That was not exactly an 
optimal solution.
    If you look over to the West Coast to the Bay Area Rapid 
Transit, we think of California as having new things, they have 
an $8 billion backlog at BART for immediate capital and 
maintenance needs. That doesn't include the $8 billion to 
replace their 30 year old, obsolete cars.
    I think we have an investment crisis in transit systems 
across America and that is just dealing with our legacy systems 
and not even beginning to talk about how we are going to build 
out a more efficient 21st Century infrastructure and make 
people safe on that.
    In addition to the direct concerns about safety, I don't 
think we can ignore the elephant in the room, which is we have 
gone from a first world transit and transportation system to 
what I call fourth world. That is, we are investing a fraction 
of our GDP, less than what most Third World countries are 
investing, in our transportation infrastructure and it is 
showing in the state of disrepair and it is going to show in 
fatalities on highways with obsolete interchanges and bridges, 
and it is going to show on our transit systems.
    I look forward to hearing both more direct testimony on how 
we can at least begin to look at this problem and provide more 
Federal oversight, but I don't think we are going to get this 
problem solved until we get a longer term authorization and 
more funding.
    With that, I would turn to whoever wishes to go first. Mr. 
Mica, the big Kahuna, goes first.
    Mr. Mica. Thank you, Mr. DeFazio. Thank you for calling 
this hearing.
    I just want to say from our side of the aisle, we are very 
committed to working with you, with the Majority Members and 
staff. This is a very serious issue and deserves the attention 
of this Subcommittee and Committee in Congress. We are 
committed to dedicate whatever resources or efforts of 
cooperation. We had the opportunity to sit with the Secretary 
and the Administrator briefly yesterday and expressed some of 
our concerns.
    We did not get the language, I understand, until about 
10:00 p.m. last night and we know that was a work in progress. 
We look forward to being contributors to crafting legislation 
that will do the job.
    I did express some concerns yesterday about the direction 
we are heading and will work with everyone to try to see that 
we don't go somewhere we do not need to go and that we do 
address specific problems that we have seen.
    Having the Federal Government take a more significant role 
in transit safety is a laudable goal. Unfortunately, sometimes 
it is a disaster that gets our attention. I said after the 
Washington, DC Metrorail crash that got everyone's attention 
that we may need to look again at the Federal standards that 
are set, and enhance some of those to see that we have 
oversight, compliance, and enforcement. We believe all those 
things are important.
    One of the things that concerns us is that you have to look 
at the record of where we have been and what we have done as 
the Federal Government. We have two primary roles. In the past, 
the Federal Government, through the Federal Railroad 
Administration, has had oversight, and enforcement 
responsibilities both in the freight rail business and also 
over our Nation's primary inter-city and long distance 
passenger rail carrier, Amtrak. We have a record of activity of 
the Federal Government.
    What I would like to submit for the record takes this issue 
very seriously, we have produced a report and we will 
distribute copies of the report. We have gone through and 
looked at the fatalities by rail transit, commuter rail and 
also by Amtrak.
    It is interesting to note the two areas that do have 
current Federal regulatory oversight and enforcement authority; 
commuter rail and Amtrak. If we look at the fatalities by the 
modes of transportation, these have had the highest number of 
fatalities.
    If you look at public transit, which has very limited 
Federal participation, you see that is the safest mode if you 
judge it by the measure of fatalities per passenger. You see 
about one fatality for 65,000,000 passengers. With transit, you 
see a much higher rate, 1 for 5,000,000 passengers in commuter 
rail and then Amtrak, which has probably the highest level of 
Federal oversight, 1 death in about every 250,000,000 
passengers.
    We also analyzed, fatalities for the different modes--
highway, railroad, air and transit--and that is part of the 
report. We think this analysis has some important information. 
It shows transit as one of the safest modes of transportation. 
We want to keep it that way.
    We believe that we should concentrate first on some of the 
areas where we have had the highest number of fatalities and 
those are two of the areas in which the Federal Government has 
already had an extensive role. Whatever we craft for rail 
transit we think should be geared to dealing with the 
fatalities and experiences that we have had.
    To just have additional inspectors, or having people as 
they say in the industry, ``walk the track,'' and build 
additional bureaucracies, we think that would be the wrong way 
to go.
    If you look at the crashes and Washington Metro, we found a 
very serious number of fatalities, not one is acceptable. You 
find that kind of inspection or enforcement or additional 
regulatory requirement, as possibly proposed right now by the 
Administration, may not, and would not, be that effective.
    We need people with the very best qualifications possible, 
people with technical skills that can deal not only with 
software but sophisticated and different types of technology 
used on these different public transit systems.
    The second thing we need is to assist them with financing. 
When we had the Metrorail crash, I asked FTA and the 
Administration to loosen the requirements. Currently funds that 
are granted from the Federal Transit Administration are 
prohibited from going to state safety oversight offices and I 
asked that we consider some flexibility in that requirement.
    If you look at these systems, you find they need 
improvements in safety. They not only need highly qualified 
personnel, but need cash and assistance to put in the proper 
safety measurements and the technology that would eliminate 
some of those crashes and fatalities that we have seen.
    In conclusion, I want to thank you again for bringing this 
meeting together. We have always worked on a cooperative, 
bipartisan basis and we intend to do so. We do that based on 
facts, the facts and findings of a rather comprehensive report 
which we have issued this morning which I would ask, Mr. 
Chairman, be made a part of the record today.
    Mr. DeFazio. Without objection, it will be made a part of 
the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 53951.008
    
    [GRAPHIC] [TIFF OMITTED] 53951.009
    
    [GRAPHIC] [TIFF OMITTED] 53951.010
    
    [GRAPHIC] [TIFF OMITTED] 53951.011
    
    [GRAPHIC] [TIFF OMITTED] 53951.012
    
    [GRAPHIC] [TIFF OMITTED] 53951.013
    
    [GRAPHIC] [TIFF OMITTED] 53951.014
    
    [GRAPHIC] [TIFF OMITTED] 53951.015
    
    [GRAPHIC] [TIFF OMITTED] 53951.016
    
    [GRAPHIC] [TIFF OMITTED] 53951.017
    
    [GRAPHIC] [TIFF OMITTED] 53951.018
    
    Mr. Mica. Thank you so much for the opportunity to present 
our side and our priorities in this important matter.
    Mr. DeFazio. We have some charts and graphs too with some 
slightly different statistics which are derived from official 
sources. We will also place those in the record without 
objection.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 53951.019
    
    [GRAPHIC] [TIFF OMITTED] 53951.020
    
    Mr. DeFazio. With that, we are going to limit opening 
statements, but I would give the Ranking Member an opportunity 
and unless the full Chairman comes in, we will then get to the 
testimony.
    Mr. Duncan. Thank you very much, Mr. Chairman. Thank you 
for calling this hearing.
    I want to, first of all, welcome Secretary LaHood and 
Federal Transit Administrator Rogoff here this morning to 
describe the Administration's proposal to expand the role of 
the Federal Government in overseeing safety in local transit 
systems.
    I want to thank Secretary LaHood for the job that he is 
doing. I think he has certainly already become one of the most 
active and most effective Secretaries of Transportation that we 
have ever had. I appreciate the job that he is doing.
    I know safety is job one for State and Federal 
transportation officials throughout the country and for 
everyone on this Committee. Ranking Member Mica has outlined 
the statistics and the situation in which we find ourselves, so 
I won't say very much in addition to that other than to say he 
did mention there is one fatality in every 66,000,000 in rail 
transit which makes that, by far, the safest mode of all. Of 
course everyone always wants to improve or do better.
    I guess my main question or concern would be that we know 
the funds of the Department of Transportation are not 
unlimited, so I think all of us want to make sure that the 
resources of the Department are directed to the areas where the 
problems are the greatest.
    Apparently some States, maybe many States, are doing a 
pretty effective job in this area. I know there are only two 
rail transit systems in Tennessee and neither has ever had a 
fatality. That would be what I would need to ask about.
    I look forward to hearing the testimony of the witnesses. I 
yield back.
    Mr. DeFazio. I thank the gentleman.
    I ask unanimous consent that the gentlewoman from the 
District of Columbia, Ms. Norton, be allowed to participate in 
today's hearing. Hearing no objection, we will proceed.
    Mr. Secretary, thank you for being here. Please proceed 
with your testimony.

 TESTIMONY OF HONORABLE RAY LAHOOD, SECRETARY, U.S. DEPARTMENT 
OF TRANSPORTATION; ACCOMPANIED BY PETER ROGOFF, ADMINISTRATOR, 
                 FEDERAL TRANSIT ADMINISTRATION

    Secretary LaHood. Thank you for holding this hearing, Mr. 
Chairman.
    To Mr. Duncan, Mr. Mica and all the Committee Members, the 
opportunity to testify on proposed legislation to reform the 
Department of Transportation's role in overseeing the safety of 
our Nation's rail transit system is a very, very historic day 
for us. With me is Peter Rogoff, the Federal Transit 
Administrator.
    Traveling by rail transit in the United States remains 
extraordinarily safe. Yet serious accidents do occur such as 
this summer's tragic Washington Metro crash and other recent 
accidents in Boston and San Francisco. We believe additional 
action is needed to make rail transit even safer. Rail transit 
is currently the only mode within the Department that operates 
without comprehensive Federal safety regulation, oversight, or 
enforcement authority. We must remedy that gap.
    Rail transit systems carry far more passengers daily than 
either our domestic airlines or passenger commuter railroads 
where safety is stringently regulated by the FAA and FRA 
respectively. Yet, the DOT has been prohibited by law since 
1964 from issuing safety standards and regulations for rail 
transit systems, systems that now serve more than 14,000,000 
passengers every day. This is an antiquated law and must be 
changed.
    That is why the Nation's major metropolitan subway and 
light rail systems from Seattle and San Francisco to Chicago, 
Boston, New York and Atlanta are subject only to the Federal 
Transit Administration's State Safety Oversight Program. This 
program lacks Federal statutory authority to establish 
meaningful, minimum safety thresholds in States where rail 
transit systems operate.
    Each rail transit system is permitted to determine its own 
safety practices. It is up to State governments, not FTA, to 
determine the extent of regulation, oversight and enforcement 
authority granted to each transit system. This results in a 
patchwork of 27 separate oversight programs guided by a 
regulatory framework of inconsistent practices, limited 
standards and marginal effectiveness.
    What is more, most States devote insufficient resources to 
these safety programs. Nationwide, with one exception, State 
safety oversight agencies employ, on average, less than one 
full-time person per year to do this work. Under these 
conditions, we risk transit safety problems going unidentified 
and uncorrected, especially as the transit infrastructure gets 
older and available revenues for transit remain tight.
    Clearly, urgent reform is needed. Under the leadership of 
our Deputy Secretary John Porcari, our Department has developed 
a legislative proposal that has now been formally submitted on 
behalf of the President to the Speaker of the House and the 
President of the Senate. I ask that you consider our reform 
proposal seriously and promptly.
    Our legislative proposal would accomplish three goals to 
strengthen transit safety nationwide. One, through the FTA, it 
would establish and enforce minimum Federal safety standards 
for rail transit systems that received Federal transit funding.
    Two, it would establish a safety certification program that 
would provide Federal assistance to eligible States that elect 
to carry out federally approved public transportation safety 
programs and enforce Federal regulations. Through this 
provision, we will seek to ensure that the States will now have 
the manpower, the training and the enforcement tools to conduct 
meaningful oversight. In States that choose to opt out, the FTA 
will enforce the new Federal standards.
    Three, the program would ensure that any State agency 
overseeing transit systems would be financially independent 
from the transit system it oversees. This morning I informed 
Congress that we would establish a Transit Rail Advisory 
Committee to develop new rail transit safety recommendations 
for FTA's consideration. The advisory committee will be made up 
of safety specialists from transit agencies, labor and 
academia. Their expertise will guide much of our regulatory 
efforts.
    Our goal is not to impose highly detailed regulations but 
rather, to encourage rail transit agencies to use modern risk 
analyses to identify their own unique safety vulnerabilities 
and then to take action to address them.
    Safety remains our highest priority at DOT. Back in 
October, I established the DOT Safety Council to tackle 
critical and cross-cutting safety issues across all 
transportation modes. Our transit safety legislation proposal 
was brought before the Council and was approved through the 
input of safety experts across the entire Department.
    I believe our legislative proposal offers a critical and 
necessary step to provide the consistent oversight the rail 
transit industry needs to ensure safe operations for transit 
workers and the traveling public.
    I look forward to your questions.
    As I think you know, Mr. Chairman, I need to leave here 
about 10:50 a.m., but Mr. Rogoff will stay for any continued 
questions.
    Thank you so much for your leadership in holding this 
hearing. Parenthetically, I want you to know that Peter and I 
were in New Orleans recently announcing several million dollars 
worth of streetcar money and Portland Street Car Company was 
well represented at that announcement.
    I know you have your own opinion about the authorization 
but I thought maybe the streetcar news might be a way to 
mitigate that.
    Thank you for holding the hearing.
    Mr. DeFazio. Thank you, Mr. Secretary. We will be mindful 
of your time.
    Yes, made in America streetcars, which for the first time 
in 70 some years, I think are a great thing. I would be happy 
if we had competition within the States, but at the moment we 
are fairly unique.
    I thank Administrator Rogoff for being here. I appreciate 
both of you and your attention to this important issue.
    I am going to divert for a second since you mentioned the 
investment you are proposing in New Starts, Small Starts with 
some unspent funds. From all I can tell, and from the tracking 
this Committee has done, which is fairly extraordinary, very 
detailed, I believe you have done a great job in getting the 
so-called American Recovery and Reinvestment Act funds out 
there on the street and under bid and underway.
    To the best of my knowledge, we have about the highest 
percentage of commitment and we are looking at pretty much 
seeing the program begin to ramp down next spring. Does that 
coincide with what you have done?
    Secretary LaHood. Mr. Chairman, first of all, thank you for 
saying that. We agree with you. We work hard every day to get 
this money spent the way you all asked us to spend it. More 
than 60 percent of the highway money is obligated and out the 
door. Almost all of the transit money is out the door. All of 
the airport money is out the door. It came in under bid, so you 
all provided us $1 billion and we spent $1.1 billion because 
the bids came in lower. We were actually able to do more on 
airports.
    Peter and his team have done a great job on the transit. We 
have done a good job on the highways. I have traveled to more 
than 30 States and more than 70 cities and I can tell you there 
are a lot of people who have worked this year on repaving 
roads, on building roads and bridges, and this program has 
worked.
    I think when you hear the President's words today at the 
Brookings Institution about the path forward, it will reflect 
the success of what you all passed and what we have been able 
to do. We are proud of what we have done and we think we have 
done it by the book, according to what you all asked us to do.
    Mr. DeFazio. Again, thank you, Mr. Secretary and 
Administrator Rogoff. It has been my experience and the 
experience of the full Committee Chairman, that you have 
delivered, delivered well and followed the rules. I think we 
are making a good investment.
    I hope to hear that from the President today, but his 
statement last week merits some correction or concern. He said 
``the term shovel ready, let us be honest, doesn't always live 
up to the bill.'' He went on from there to say that 
infrastructure just takes too long and it wasn't getting out 
there. Apparently he is just getting the same memo that was 
provided to him last February from some members of his economic 
team and they were ignoring the reality of what has actually 
happened between February and today in terms of spending those 
funds.
    I am hoping that we can get a different memo to him and 
hopefully get one before today's event.
    Secretary LaHood. Can I also say that early next year, we 
will be making announcements on the $1.5 billion. None of that 
money has been spent, the so-called TIGER Grants.
    Mr. DeFazio. What was the value of people's applications?
    Secretary LaHood. Well oversubscribed.
    Mr. DeFazio. I think it was like $50 billion.
    Secretary LaHood. About $50 billion to $60 billion.
    Mr. DeFazio. For $1.5 billion, so that does indicate there 
is a little need out there.
    Secretary LaHood. I can tell you we have received some very 
innovative, creative, inter-modal proposals. We will also be 
making announcements early next year on our high-speed 
passenger rail which was $8 billion. Those two pots of money, 
none of that has been spent. Again, very creative ideas are 
coming in on high- speed passenger rail from all over the 
country.
    Mr. DeFazio. However, going from no Federal investment in 
high-speed passenger rail to actually beginning to get money 
out the door at the beginning of the year I think is kind of 
light speed for the Federal Government. I appreciate that.
    I have a couple of questions on the proposed legislation 
before us and then I will defer to other Members of the 
Committee.
    On August 4 before the Senate Banking Committee, 
Administrator Rogoff said, ``The issues of the conditions of 
our transit infrastructure and safety of our transit systems 
are inextricably linked. Deferred maintenance items, if 
deferred long enough or left undetected can become critical 
safety risks.'' I certainly agree with that.
    I guess the question becomes, to both of you or either of 
you, if we are not in a state of good repair and we are going 
to overlay a new Federal safety mandate, how is this all going 
to fit in the budget?
    Mr. Rogoff. The first thing I would like to point out is 
the state of good repair has been adopted by this 
Administration as one of the very short lists of new priority 
goals for the Department, not just in transit, that also 
overlays the aviation infrastructure and the highway 
infrastructure.
    You referenced at the beginning of your presentation 
decrepit equipment. We were reminded back a couple of years ago 
in Chicago we had a very bad transit accident involving 150 
injuries. I happened to bring a prop. This is a lag screw that 
dates from the original build of the Chicago transit system.
    Mr. DeFazio. Could you date that?
    Mr. Rogoff. This would be at least 55 if not 60 years old. 
The head of the CTA and I met just this past Friday and he 
informed me there were plenty of these still in his system and 
that is what results in slow orders over his system. It is not 
just a matter of the state of good repair potentially posing a 
safety risk, it also poses a reliability drag on the transit 
system and the ability of the people of Chicago to use transit 
and undermines the economic productivity of the people who have 
to go six miles per hour over equipment that looks like this.
    Mr. DeFazio. I would like to get one of those if they could 
provide one.
    Mr. Rogoff. They assure me they have plenty. What concerns 
me is they still have plenty in the system.
    That said, you are correct that the additional regulatory 
burden that might be brought about as a result of this law 
could, and I emphasize could, result in certain instances in 
additional costs. One of the things I would want to emphasize 
that was in the Secretary's testimony is we are not looking to 
recreate the FRA rulebook that is this thick. We are really 
looking to try to get to performance-based measures.
    Every regulation that would be put out under this law would 
be subject to cost benefit analysis and would have to show that 
the benefits exceed the costs. The position of the 
Administration is that the safety dollar really needs to be the 
first expenditure of these transit systems, not the last. 
Therefore, we need to make sure that they are spending their 
capital dollars at whatever level on their greatest safety 
vulnerabilities.
    Secretary LaHood. Can I just say, Mr. Chairman, when Mr. 
Catoe called us the day after the WMATA crash and asked to meet 
with us for a request for $150 billion to buy new cars, what we 
said was, you can come to the Department and we will meet with 
you but we are going to talk about safety first. That has to be 
our priority. That is the purpose of the legislation. I think 
everyone in this region woke up the next day after that crash 
and said, who is responsible for looking after safety. There 
really was no one.
    When we talked to Mr. Catoe, we talked about safety first 
before we talked about anything else.
    Mr. DeFazio. To me it is somewhat reminiscent of some 
things that have gone on from time to time in aviation where 
when the industry is under extraordinary financial stress, 
there is some temptation to find ways to save money or defer 
expenses. I worry a lot about that in these days with our 
transit systems. I appreciate your sending the message. In this 
case, safety has apparently meant a lot more manual control, 
slightly slower performance, but that is what we need to do to 
keep people safe until the equipment is upgraded. That needs to 
be the priority.
    One last quick question, Mr. Rogoff, because I don't know 
whether they used different measures or not and I am getting 
updated on aviation, but in terms of cost benefit, do you know 
what value they are putting on a life these days? That is 
always instructive.
    Mr. Rogoff. I believe it is in the range of $6 million to 
$7 million.
    Mr. DeFazio. Really? That is much more than I have heard 
for aviation.
    Mr. Rogoff. I would like to provide a more precise number 
for the record but I think importantly, when we think about 
where we would want to regulate first, it is really about 
getting the agencies to establish more robust systems to know 
where there assets are and manage them so they are addressing 
their greatest safety vulnerability first. We don't see that 
having a hugely burdensome cost.
    Mr. DeFazio. Thank you.
    Mr. Duncan.
    Mr. Duncan. Thank you very much, Mr. Chairman.
    Let me first ask some nuts and bolts questions. Do we know 
how much this new Federal supervision will cost and how many 
employees it will require?
    Mr. Rogoff. Sir, those budgetary numbers are being fine 
tuned with OMB right now. I think you will see them come out as 
part of our 2012 budget. I can assure you they will be well 
under one percent of the FTA's total budget. We are talking 
about a less than one percent uptick, particularly for the 
safety mission.
    Mr. Duncan. I know you set standards about certain things 
in regard to grant requests that are made. Do you presently or 
have you in the past set safety requirements or safety 
standards in regard to some of the grant requests that are made 
by these systems?
    Mr. Rogoff. I will credit my predecessor Jim Simpson for 
this in terms of as we approach some of the New Starts 
projects, we have a dilemma as an agency at the FTA about 
agencies that want to expand their footprint and build 
extensions to reach new communities that may not be adequately 
investing in their existing footprint.
    We have systems like that around the country because often 
they come to us and ask us to cost share in the expansion. We 
are concerned about that. We are pursuing things with other 
projects where we are asking the tough questions like before 
you expand out to the next community, how can you assure us 
that you are adequately investing in the current. It is a 
dilemma for us because we want to see expanded transit service, 
but we also want to see safe and reliable transit service.
    Mr. Duncan. That sort of relates to my next question. These 
systems vary widely across the country, correct?
    Mr. Rogoff. Yes, sir.
    Mr. Duncan. Some are much safer than others, would you say, 
or do a better job in regard to safety than others?
    Mr. Rogoff. Yes, they do, but I think it is tough when you 
look at individual incidents. A particularly safe system may 
have one tragic incident that will skew the numbers for that 
year. Thankfully, catastrophic incidents are few and far 
between, but when they occur, they are truly catastrophic and 
they are hit or miss on which system they hit.
    Mr. Duncan. Mr. Secretary, if or when the Congress gives 
you this authority, how long do you think it will take to set 
up a program?
    Secretary LaHood. We think it will take upwards of three 
years, no more than three years, but it will take some time to 
do it and we want to do it in cooperation with the transit 
districts around the country and with Congress. We think it 
will take upwards of three years.
    Mr. Duncan. Do you think you can make sure the States that 
are doing a good job now are not overburdened with all sorts of 
inspections or requirements if they are doing a pretty 
effective job right now? Will they get credit for that?
    Secretary LaHood. Yes, sir. They will have an opt out 
provision. In the legislation we presented to the Speaker and 
the President of the Senate, which you will all have a chance 
to see sometime today, there is an opt out provision for 
States.
    Mr. Duncan. All right.
    Mr. Rogoff. I think importantly, we are also proposing to 
use some of that additional budgetary resource to help staff, 
train and handle the travel expenses of those State agencies 
for those that want to continue to participate. Our real goal 
is to try to raise the level of expertise and the ability to 
oversee those systems.
    Right now those agencies, as the Secretary pointed out in 
his opening statement, with the exception of California which 
is sort of the gold standard, if you take them out of the 
equation, they average less than one employee for the entire 
State. We would like to boost those numbers, their expertise 
and their capability.
    Mr. Duncan. Thank you very much.
    Mr. DeFazio. We will go in the order in which Members 
appeared. Mr. Holden was next. He is not here. Ms. Edwards?
    Ms. Edwards. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary. I appreciate your being here.
    I wanted, first, to thank you for your leadership on the 
safety questions and asking those questions first. I know 
following the tragic accident here on our Metro system, I 
introduced, along with all of the Members of our delegation, 
H.R. 3338 which essentially goes to the core of your 
recommendation and proposal.
    The fact is that because there aren't safety standards, 
there is this hodgepodge of ``safety'' that is going on around 
the country, none of it particularly invested in. We just 
follow up on the recommendations that have been made time after 
time after time by the National Transportation Safety Board to 
establish a Federal safety standard.
    These are recommendations that have followed almost every 
one of these catastrophic incidents, but haven't been done. So 
I think it is high time, especially in a moment where we are 
going into a period, I hope, of significant investment in this 
Nation's infrastructure, both the existing infrastructure and 
adding new systems and not leaving safety to the last 
consideration because of questions around being able to support 
general operations and maintenance.
    My question to you is whether you believe the proposal you 
have will enable the States to play a role, should they want 
to, in monitoring and overseeing safety or whether that is 
something that really should be at the base of the 
responsibility of the Federal Government?
    Secretary LaHood. Congresswoman, first of all, let me thank 
you for your leadership on this. We have looked at your 
legislation and I think if you look at ours, there is a lot of 
similarity. Thanks so much for your leadership on this issue 
also. We sort of took a page out of your legislation in what we 
are trying to do and what will be at the Speaker's office 
today.
    We think there are some States that get it, but it is a 
mixed bag. When people get on a train, light rail or a bus, 
they want to be delivered safely. If they are not, they want to 
know who is accountable. As I said, after the WMATA crash, we 
were all sort of scratching our heads about how come there is 
not somebody around who sounding all the alarms.
    Some States get it, some States simply don't have the 
resources for it. Some States haven't had to really do anything 
because they have had a very good safety record. It is a mixed 
bag and that is the reason we felt it was very important for 
our department to step up and follow your lead and the lead of 
others in trying to put forth some very good safety 
legislation.
    Ms. Edwards. I appreciate that.
    The other question that has been raised following that 
accident, it is true that in the Washington Metro system we 
have wireless access, but there is also a problem around the 
country of not having adequate wireless access, even for 911 
emergency calls.
    I wonder if you could give me some guidance as to how we 
might accommodate those needs as we move forward on safety.
    Mr. Rogoff. The Department still participates in the 
upgrade of the E911 systems and consults on that. In the 
transit space specifically, as the Secretary said about the 
States, it is also true of the systems and that is it is a 
mixed bag in terms of what wireless access has provided. 
Sometimes they have waited for a vendor to come in, be it 
Verizon or a competitor, to provide that wireless access.
    It is not currently considered as an elemental safety 
opportunity for all systems and therefore, we do not have it in 
all systems.
    Ms. Edwards. The irony is, of course, this isn't about a 
Federal investment because the wireless companies want to be 
able to come in and just do it, but I do think it is important 
for us to recognize there might be elements specifically around 
911 access where we could encourage systems to engage with 
those wireless companies and let them go to the business of 
doing what their business is. I don't want to install wireless, 
but they do, so whatever guidance you could continue to give 
along that range would be helpful.
    I know that Mr. Duncan and I have actually introduced 
legislation in this direction that we hope will meet with your 
approval as well as we go forward.
    Thank you very much, Mr. Chairman.
    Mr. DeFazio. Mr. Mica.
    Mr. Mica. After the Washington Metro crash, I had written 
the Administration and asked if we could have more flexibility 
because I wasn't really aware and you don't pay much attention 
sometimes to how Federal money is disbursed with what 
restrictions, but there were, I found, restrictions on using 
some of this money for safety and enforcement. I asked if we 
could have some flexibility. The initial response was no. Also, 
we had restrictions on some of the grants.
    Given what we now know, are you more inclined to change 
your opinion about the use of Federal money? We have all looked 
at these cases. If we don't have the standards, and I have no 
problem with enhancing some of the standards, but if we do put 
in standards or mandates they have to attain as far as safety, 
it always goes back to the cash. They don't have the cash.
    I think you are headed in the right direction by trying to 
make safety the priority. If we have Federal money and cash is 
the problem, that should certainly be a priority. What is your 
take on that, Secretary or Administrator?
    Mr. Rogoff. Sir, the reason we couldn't agree with your 
earlier proposal was that what you had proposed was that 
transit agencies be allowed to use a portion of their 5307 
formula grants and use their Federal formula dollars as a way 
of paying the costs of their overseer. We have continued to 
worry and be concerned about the potential conflict of interest 
when the regulated transit agency holds the purse strings to 
the agency that is supposed to oversee and regulate them. It is 
obviously something we don't allow. In the Federal railroad 
universe, we don't allow the freight railroads to decide how 
much to compensate FRA inspectors, we don't allow the airlines 
to do the same with FAA inspectors.
    We believe our legislative proposal fixes that problem and 
gets Federal dollars into the hands of the States' safety 
oversight people. However, it does so without being passed 
through the transit agencies. It is a direct grant to the 
participating States to do better oversight. I think we have 
captured your solution, but we have done it in a way that 
eliminates any risk of conflict of interest.
    Mr. Mica. The only other question I will ask is you have 
described to the Committee and to me personally that you want 
to have additional resources as far as Federal personnel. My 
only concern is if we mix all of the enforcement or oversight 
or regulatory compliance into one kettle that we start diluting 
the soup. You see that and you are always faced with Congress 
passing well- intended legislation and then you are stretching 
your bucks.
    We already saw we have serious problems with fatalities, 
with Amtrak, with freight rail fatalities. I just don't want to 
pour a little bit more money in there and dilute the soup 
across the board so we are neglecting what we have to say grace 
over versus adding to it. Could you comment?
    Mr. Rogoff. I am not sure if you were here when Mr. Duncan 
asked the question about cost, but basically we view the 
overall uptick in cost out of the FTA to do this initiative 
fully built out as being less than one percent of our total 
budget. We do not see this as a huge drain on agency resources.
    I don't think anyone is talking about diluting our efforts 
in aviation or commuter rail safety through the FRA. This is 
really about getting at the rail transit agencies not currently 
regulated by the FRA and where we do see some statistics that 
truly worry us about their performance and safety concerns.
    Mr. Mica. Thank you.
    Mr. DeFazio. I thank the gentleman.
    Mr. Secretary, I am keeping track of your time. That clock 
is a little fast. It is 10:44 a.m., real time.
    Mr. Nadler.
    Mr. Nadler. Thank you, Mr. Chairman.
    Let me begin by thanking the Secretary for taking 
expeditious and good action in a matter I brought to his 
attention with respect to FHWA. I should tell you at a meeting 
with the Port Authority of New York-New Jersey, the two State 
DOTs and the FHWA last week, things are going excellently. I 
thank you for that.
    Secretary LaHood. Thank you.
    Mr. Nadler. Secondly, I have two questions for you. I am 
generally supportive of the proposed legislation. I just want 
to clarify.
    My understanding is that if the State has strong safety 
standards and regulations in place, they would not be displaced 
by the Federal system. From what I understand of the proposal, 
States will not be preempted from establishing more stringent 
safety standards. Is that correct?
    Mr. Rogoff. That is correct. We do not have preemption. The 
State would have to apply to us to show their standard is 
safer, but we would grant that application if we found it to be 
so.
    Mr. Nadler. That is the opt-in/opt-out provision?
    Mr. Rogoff. The opt-in and opt-out really pertains to 
whether the State oversight agency wants to perform the Federal 
oversight or whether the State would continue to do it at 
Federal expense.
    Mr. Nadler. I appreciate that and I commend the approach. 
So often we see the Federal Government trying to displace the 
States from more stringent standards in whatever areas. I am 
glad to see that is not the case here.
    Secondly, one of the effects of the current economic 
downturn is that State and local revenue sources that fund 
transit projects have decreased as we know. Local governments 
are currently facing revenue shortages and have to make 
difficult budget choices.
    How do you expect transit agencies to make progress in 
their safety and maintenance projects without further revenues? 
Specifically, without a long term authorization, would you 
agree that transit agencies will lack the fiscal ability to 
make comprehensive transportation safety advances before we get 
a long term reauthorization?
    Mr. Rogoff. Our view has been and will continue to be that 
the most critical safety needs need to be addressed first, no 
matter what the available funding envelope is. I have met with 
Mr. Walder, the new MTA general manager. He gets that and 
understands that. He has done this successfully in other 
systems.
    Part of what we want to do with this new regime is help 
certain transit agencies to gain the expertise to identify what 
those greatest safety vulnerabilities are. I think it is fair 
to say especially on things like assets, we have agencies all 
over the map. We have agencies who do very, very good 
management of assets, we have other agencies that couldn't even 
tell you where all their assets are right now and everything in 
between.
    We want to raise the level of all of them and make sure 
their dollars are spent first on safety, but we also see safety 
as sort of a non-negotiable expense. We also think our role can 
maybe help cities approach city councils, their State 
legislatures and their governor with serious concerns about 
their state of good repair.
    Mr. Nadler. I would agree that safety is a non-negotiable 
expense and that it comes before anything else. I don't think 
you will find anyone who disagrees with that, at least 
rhetorically.
    When agencies are faced with extreme stringencies and 
pressures on safety, on getting the trains running on time, 
getting the buses out and getting the people paid, they are 
going to look for savings in every area. Whatever their good 
intentions, too often we know safety is going to suffer to some 
extent along with other things.
    I would say again that the ability to have more funds and 
to plan long term will impact the safety area as well, which is 
another reason for getting a full reauthorization.
    Mr. DeFazio. I am sorry. I am going to interrupt you 
because we only have two minutes and the full Committee 
Chairman wishes to say something briefly to the Secretary.
    Mr. Nadler. I have finished basically.
    Mr. Oberstar. Thank you for your observations. Mr. Nadler, 
I appreciate that very much.
    I just want to take a moment before the Secretary has to 
get on to others. It is not snubbing our Committee, he is just 
pulled in many different directions. I know it full well.
    I want to thank you and Mr. Rogoff for taking this 
initiative. This is a very, very important move on safety. We 
have learned all too well in the past with the FAA and other 
government agencies that when you get into a ``tombstone'' 
mentality and start reacting when people die, then it is too 
late and you make the wrong decisions. This is a very good move 
in anticipation of a broader initiative on safety.
    Further, I want to highlight the Secretary's initiative, 
long over due, 43 years over due, in bringing the 
administrators together of the various modes of transportation 
on a safety initiative paralleling the bill that we reported 
from Subcommittee that establishes a National Transportation 
Safety Initiative requiring the Department to establish a six 
year, comprehensive, strategic plan for safety, creating the 
Council on Intermodalism and establishing an Under Secretary 
for Intermodalism.
    You have taken a chapter from our book, moved ahead on it 
and I want to signal that out and express my support and I 
think the support of most Members of this Committee for that 
initiative.
    As for those who say, you are taking the initiative away 
from the States, safety is a partnership. Safety requires a 
culture of safety at the top level. That means the States and 
the Federal Government. This transportation initiative has 
always been a partnership. When one partner doesn't do the job 
well, then the other has to take the lead.
    We are not isolated little States here, we are not isolated 
principalities. This is a nation. Some from New York travel to 
California and expect the same level of safety there as they 
had in the State they left. We need to engage all the States 
and the Federal Government in this partnership for safety so 
that we don't head into a graveyard, grave stone mentality.
    This is a start of a long dialog, an important one, and we 
are going to partner with you and move this initiative along.
    Thank you, Mr. Secretary.
    Secretary LaHood. Mr. Chairman, let me express my thanks to 
you for your leadership over many years on safety issues and 
for the opportunity to really step up here and be a part of 
what we think is a very strong safety agenda.
    I know that on Thursday there is an ARRA meeting and I want 
to express my thanks, as I did to the Chair of the 
Subcommittee, for your support on our work in getting the ARRA 
money out the door and into the hands of people who can put 
people to work. You can look at the record to see what I said 
to Mr. DeFazio and the Committee Members that were here, but 
you have been a stalwart in making sure we are doing it by the 
book and then supporting us when we have done that. I 
appreciate that very much.
    I won't be here for the hearing on Thursday. Mr. Porcari 
will be here but in the absence of that, I want to say thank to 
you and to other Members of the Committee who have stood by us 
on this. We think we have done it the right way and we think a 
lot of people have gone to work this year.
    Mr. Oberstar. Yes. As a matter of fact, under just the 
highway, transit, and safety programs, 350,000 jobs, direct and 
indirect, those in the supply chain, a $10 billion payroll, 
$900 million being paid in taxes, people off unemployment rolls 
getting a payroll check instead of an unemployment check, 
paying their mortgage and getting their health insurance 
reinstated, that is what this Recovery Act is all about. We 
just need to get that over to a few folk over in the White 
House. They simply need to know that.
    Secretary LaHood. As you know, the President is making a 
speech today and Mr. DeFazio already referred to that.
    Mr. DeFazio, on my way out the door, may I present this as 
a Christmas gift to you? [Hands the lag screw to Mr. DeFazio].
    Mr. DeFazio. I think it meets all of the statutory 
requirements. That would be great, Mr. Secretary, one used, 
outmoded part. It was made in America and it did last a long 
time.
    Thank you.
    Secretary LaHood. It came from the Chicago Transit 
Authority.
    Mr. DeFazio. Sorry to deprive you of your paper weight.
    Mr. Rogoff. There is plenty more where that came from.
    Mr. DeFazio. We will continue with questions of the 
Administrator. Ms. Schmidt.
    Mrs. Schmidt. Thank you, Mr. Chairman. I have a couple of 
questions.
    Let me preface this by saying that we have been warned for 
the past month by many folks that we have to control costs at 
the Federal level because of the racing deficits that we are 
creating. Moody's has come out and warned us that if we do not 
stop the spending, we could be in jeopardy of losing our AAA 
rating in the next three to four years which would be 
catastrophic for the United States.
    Having said that, I am very concerned about any spending 
that we do here on Capitol Hill because that could lead to a 
deficit. My concern is when you said it is less than one 
percent of the budget for the overall cost of this. There are 
three parts of my question.
    First of all, what is the actual dollar amount of less than 
one percent? Two, will you be asking us for an increase in your 
budget over the next few years to sustain that? Three, as 
States look at their own budgets and their own budget 
shortfalls, what would prohibit them from opting in and letting 
the Federal Government pay their tab and have you factored all 
that into your costs or would that be even more cost to your 
proposal?
    Mr. Rogoff. Let me take those in order. What I said was it 
is less than one percent of the Federal Transit 
Administration's budget. We are currently a $10 billion agency. 
I believe I said well less than one percent, so we are talking 
about well less than $100 million.
    Mrs. Schmidt. That is still $100 million.
    Mr. Rogoff. Yes, it is. When you look across the safety 
expenditures across the entire DOT, it is quite modest. The one 
thing I can't discuss in any detail because obviously the 
President's 2011 budget is still under development, but that 
doesn't necessarily mean all that is in the form of an uptick 
in the overall budget. There are obviously offsets that will be 
accompanying the President's budget when they come up.
    Importantly, you asked about the conditions of the States. 
Our initiative, in some ways, will be cost-relieving to the 
States in that we are proposing to eliminate the concerns a 
number of States have had that this is an unfunded mandate 
under law, that we would begin to take over the cost 
requirements of these safety inspectors, pay for their 
training, pay for their travel and get them to a level of 
expertise we think is worthy of the safety regime we need.
    Importantly, when you really look at the big dollars in my 
agency, they are in the form of grants to all these transit 
agencies. Some 40 to 50 percent of all the transit capital 
expenditures in the country are appropriated dollars from my 
agency. As such, to ensure that those dollars are being spent 
wisely and giving rise to safe systems, we believe dedicating 
less than one percent of our agency to better ensure safety is 
a wise investment.
    Mrs. Schmidt. To follow up to your responses, this $100 
million that you call modest.
    Mr. Rogoff. I think I said well less than one percent.
    Mrs. Schmidt. That takes into account if all 50 States opt 
into the Federal program?
    Mr. Rogoff. Basically, the costs are roughly the same 
whether a State opts-in or opts-out because we would pay for 
the State inspectors to do that job. If they opted out, we 
would need to put Federal inspectors on the job. Those costs 
are relatively the same.
    Mrs. Schmidt. Actually, they are not, sir, and that is 
because 49 out of 50 States have to balance their budgets, the 
Federal Government does not, so that would increase the Federal 
deficit which is what my concern is with Moody's.
    The second issue, you mentioned the 2012 budget. You are 
looking at this with anticipation that there will be an 
increase in the 2012 budget for your agency or not?
    Mr. Rogoff. I said there would be an increment for this 
initiative we anticipate in the President's 2011 budget that 
will be transmitted in February. The President's budget is 
still under development and I couldn't say whether that is a 
net increase or a net decrease because I, frankly, don't know 
what the levels are for the other elements of the Department of 
Transportation.
    Mrs. Schmidt. However, for you, you will be asking for more 
money to implement this?
    Mr. Rogoff. We will be asking for money to implement this. 
Whether it is a net increase or a net decrease, I couldn't tell 
you at this time.
    Mrs. Schmidt. Thank you.
    Mr. DeFazio. Again in the order of appearance, Mr. Hare.
    Mr. Hare. Thank you, Mr. Chairman, and thanks for having 
the hearing.
    Mr. Rogoff, I just have one quick question for you. I 
appreciate your being here and the work that you do.
    Three transit maintenance workers were struck and killed 
while working on the tracks. I wonder if you could tell me what 
is being done to improve rail transit worker's safety?
    Mr. Rogoff. Among the statistics I said earlier, Mr. Mica 
had raised some issues related to the fatality levels. 
Thankfully, the fatality levels in the rail transit area have 
remained low, though one incident skews those.
    One of the areas in which we are greatly concerned is 
worker fatalities. We believe this proposal helps address that 
in the following ways. I was on the phone with Mr. Catoe from 
WMATA the other Sunday after the crash at the West Falls Church 
yard. We got into a discussion about why these individual 
incidents keep recurring.
    One of the things he pointed out that concerns us greatly 
is the fact that seniority in the workplace in terms of average 
seniority is going down. We have a combination of an increasing 
number of retirements, challenges with adequate wages to keep 
people on the job and we are losing a lot of expertise through 
retirement or our inability to retain people in the industry.
    We talked specifically this morning about the need to raise 
the ability of the Federal inspectors, be they State employees 
or Federal employees. We really need to do a better job just 
raising the level of safety expertise and cognizance over 
safety issues in the whole workforce, including those in the 
transit agencies. I have had conversations with APTA about how 
we can do that.
    We have a number of programs in place that have included 
areas where we have tried to better educate both the line 
workers, right-of-way workers, as well as management to right-
of-way safety. I think if we have the opportunity to break 
through the prohibition and approach some regulation in this 
area, we would want to make sure that discussions of worker 
safety are part of that mix.
    Mr. Hare. I have one quick comment. I appreciate Ms. 
Schmidt's question, but I would say to you this is the first 
time in 40 some years we are talking about having a bill at 
less than one percent. I don't hold you to a number obviously 
but I don't know what price you can put on public safety.
    I am concerned about deficits as well, but I am more 
concerned, quite candidly, about the safety of the people who 
ride these things every single day. I think if it is less than 
one percent, whatever the percent is, it could be .7 of 1 
percent, but I certainly hope we can get you the funds 
necessary to be able to implement this after 40 some years. I 
want to commend you.
    I know Secretary LaHood well and I think he has done a 
wonderful job. I appreciate the fact that the President has 
decided to do this. I think it is well over due. If we don't do 
it now, when are we ever going to get this thing done.
    I appreciate your coming today. I certainly look forward to 
supporting the bill the Administration is talking about for 
safety. We will handle the deficit. We also have to handle the 
deaths and the injuries that come from that. With all due 
respect to Moody's, I would defer to 40 some years of not 
having a safety bill in place.
    Mr. Rogoff. I think there are other parts of that picture 
that play into the Nation's productivity as well. These systems 
need to be reliable and safe for people to feel comfortable to 
ride them. If we are really going to lower our dependence on 
foreign oil, we need adequate, safe and reliable transit and it 
is a well less than one percent increment to ensure safety. We 
feel it is just being a good steward of the multiple billions 
of dollars we put out to maintain these systems every year.
    Mr. Hare. Thank you, Mr. Rogoff.
    I yield back.
    Mr. DeFazio. We will now turn to Mrs. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chair.
    I am sorry Mr. LaHood had to leave. Most of my questions 
were for him. Hopefully, you will be able to carry them if you 
can't answer them today.
    Involving safety, we have been working on that for a long 
time in California, as you well know. One of the things that 
bothers me is sometimes the States are preempted from 
establishing more stringent safety standards for railroads to 
protect against local safety hazards.
    If the regulation does not affect interstate commerce, 
could you comment on that?
    Mr. Rogoff. Yes. The proposed legislation we transmitted to 
the Speaker last evening does not assume Federal preemption in 
this area. We do have explicit procedures where States that 
have stronger safety standards need only to apply to us and 
demonstrate their standard is safer, in which case we would 
agree with that and allow those safer standards in the States 
to take place. That is a difference from what you see in a 
number of other DOT modes.
    Mrs. Napolitano. Does that mean you would not need a 
Federal mandate to do it, you would do it without having to 
come through us?
    Mr. Rogoff. If we were given the authority to issue 
regulations, which is what we are seeking under this 
legislation, the issuance of those regulations would put a 
process in place where we need not preempt the States. The 
States could apply to us to maintain their own standard.
    Mrs. Napolitano. One of the other questions was the issue 
with positive train control. Have you any idea where the 
railroads are to meet those deadlines that Congress passed in 
new safety standards?
    Mr. Rogoff. That rule is handled by the Federal Railroad 
Administration. We actually have representatives from the FRA 
here. I could bring our Chief Safety Officer from the FRA to 
the table with the Chairman's permission if you want to get 
into that issue.
    Mrs. Napolitano. Mr. Chair?
    Ms. Strang. Thank you. I am Jo Strang, Chief Safety 
Officer, Federal Railroad Administration.
    Currently the status of the positive train control is that 
it is in clearance. We expect it will be issued shortly. The 
next deadline we are to meet is they have to file their 
implementation plans by April 16, 2010. At that time, FRA will 
review and approve or disapprove the plans and modify them as 
we need. Everything is on target for the December 31, 2015 
implementation date.
    Mrs. Napolitano. Thank you very much. That clarifies that 
one.
    The other question I have is there has been a lot of focus 
in making sure that high speed rail trains and cars are made in 
America. There was a forum recently on the issue. Should we be 
focusing on making more transit cars to be made in America. The 
investment in transit is much more predictable and dependable 
than high speed rail cars. In LA metro alone, probably we spend 
$500 million on new cars in five years but the production is 
overseas.
    Mr. Rogoff. The short answer is absolutely. Indeed, FTA, at 
the Secretary's insistence, was a full participant in the forum 
we just had with the rail manufacturers last week because there 
is a lot of new focus on the new high-speed rail initiative. 
There was a lot of press attention but we did have the 
opportunity to meet with those manufacturers.
    We hope the expanded presence and expanded investment in 
this country in rail manufacture will come coincidentally with 
a greater supply chain based in the United States for transit 
investment and transit rail cars right here in the United 
States. We need the jobs here just as we need them when we are 
producing high-speed rail cars.
    Mrs. Napolitano. Is any other agency working on making sure 
that does happen?
    Mr. Rogoff. We have had conversations with the Commerce 
Department on this. We were addressed at the forum that 
Secretary LaHood held by one of the leaders in the White House 
working on manufacturing policy, so this is a full 
Administration commitment.
    Mrs. Napolitano. Thank you, sir.
    Thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. I thank the gentlelady.
    Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    There has been a little talk about the Washington accident. 
I would like to talk a bit about the accident in California.
    On September 18, 2008, 25 people were killed, 135 were 
injured, 40 of which were critically injured. The investigation 
is being led by the NTSB. It was found that the Metrolink 
engineer ran a red light that was preceded by two yellow lights 
that warned of an upcoming stop.
    The NTSB also said the engineer was text messaging before 
the crash, so the collisions could have had more than one 
cause. The reports also released in December stated that the 
red light that could have prevented the crash was not as bright 
as the other lights on the same track side warning device.
    Additionally, there were other communications issues. The 
engineer responsible for checking the signals and abiding by 
them, did not happen. When the engineer encountered a signal, 
he was supposed to radio the train conductor who is supposed to 
radio back confirming the signal's color which did not happen. 
This allows the conductor to apply the brakes should the driver 
appear to be incapacitated for any reason. However, according 
to the data video, the last two signals were not reported and 
the conductor did not apply the brakes.
    My question to you is, in light of what happened with that 
accident, where do we stand and are there any impediments to 
achieving better goals?
    Mr. Rogoff. While Metrolink is regulated as a commuter rail 
agency by the FRA, the FRA is working diligently on improving 
safety every day in that area. The tragic Chatsworth crash 
informs their thinking and is in large part behind the recent 
rulemaking procedures on positive train control. Progress is 
being made there.
    With this legislation, we are trying to gain the authority 
for the first time since the agency was formed in the mid-1960s 
to have safety regulatory authority for systems like MUNI, for 
systems like the LAMTA, where currently there are no Federal 
safety minimums and regulations of any kind. We view this as a 
huge step forward for rail transit passengers in cities around 
the country.
    Ms. Richardson. In light of that, I think one of the issues 
we talked about in California is the worker requirements are 
not consistent. For example, a lot of the work that has been 
done with Union Pacific and on that level, is not the same as 
in terms of Metrolink.
    I have not had a chance to review the President and your 
legislative proposal. Does that include specific worker 
requirements to bring things in synch?
    Mr. Rogoff. We do not go into great specificity in the law 
into precisely which areas we would regulate first. The 
Secretary has convened and announced--as of today the papers 
will be delivered--a Transit Rail Safety Advisory Committee, 
but I can assure you some of the things we look at and some of 
the distinction between existing rules as relates to freight 
and commuter rail versus existing rules that we don't have, 
issues like the fact that we have train operators who do not 
have to go through an annual physical in this area, while they 
are required for a commercial drivers licenses, for pilots and 
locomotive engineers in other areas.
    You will hear from the NTSB on this but all of us have 
recommendations from the NTSB to deal with issues as it relates 
to the health and ability of operators. We really can't, as an 
agency at the FTA, respond to them because we don't have 
statutory authority. That is the authority we are seeking here.
    Ms. Richardson. As you seek to get that authority, one of 
the things that will be key in getting my support will be 
addressing some of the worker issues. The work you have done on 
the national level we now need to do on the State and local 
levels.
    Mr. Rogoff. Absolutely. As I told Mr. Hare earlier, the 
issue of the ability of workers to operate a safe system, and 
also the ability of workers to work on a system safely and 
protect themselves is essential to our thinking.
    Ms. Richardson. I only have 46 seconds left. My last 
question is, how will you determine how many staff at the State 
level are adequate to enforce these Federal regulations? Where 
would you find the funding for such staff and who would provide 
the training?
    Mr. Rogoff. We already do some training through the FTA. 
That is only voluntary activity that we can do out of available 
budget resources, but we would envision doing a great deal 
more. We have budgeted through our process with OMB to pay for 
the State enforcement authorities that do opt-in or Federal 
enforcement authorities that do opt-out. We are making room for 
that in our budget. That is the figure I discussed with Mrs. 
Schmidt as it related to being less than one percent of our 
total budget.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentlelady.
    With that, we would turn to Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I appreciate the 
ability to question our witness today.
    I want to thank you very much for this initiative. I am on 
the Senate House bill--the regional bill where Ms. Edwards is 
the lead here in the House--that was almost mandated by the 
June 22 tragic collision, nine people killed, seven from the 
District of Columbia. Wherever they are from, we look at this 
and try to see how we can keep this from happening anywhere 
else.
    There have been some questions, as you might expect, on 
budget and I have processed your answer. I think what you are 
doing with the opt-out with the States nominally makes sense. 
First, you will have to make me understand why paying for 50 
different safety agencies, unlike what we do anywhere else with 
safety in transportation, paying completely for 50 different 
State agencies and you will be paying for the District of 
Columbia and five territories as well, why in the world that is 
not demonstrably more costly than having regulation as we have 
it for every other system in the Federal Government?
    Why would anybody opt to have you regulate if you are going 
to pay for them to set up a whole new bureaucracy in their 
States with all the administrative costs, all it takes to 
initiate a new system. Tell me how that fits anybody's set of 
budget strictures whether they are my colleagues on the other 
side or frankly, those of us who sit on this side?
    Mr. Rogoff. Ms. Norton, I am not sure that our model is 
necessarily less cost effective. I say that for the following 
reason. We did not develop a whole new scheme here, a whole 
cloth. We are pretty much taking a page from a playbook that we 
have in other DOT modes, specifically in the Federal Motor 
Carrier Safety Administration we have something called the 
MCSAP Program. We make grants to States to enforce Federal 
standards. That is potentially what we are talking about doing 
here.
    Ms. Norton. What kind of standards are you talking about?
    Mr. Rogoff. The Federal Motor Carrier Safety Administration 
does commercial motor vehicles, basically truck safety 
standards. In some cases, the Federal agents do that 
enforcement in those States. In others, we pay States to 
enforce it.
    Ms. Norton. How many of the States do it on their own?
    Mr. Rogoff. I don't have the precise number.
    Ms. Norton. How many of the States have agencies as we 
speak?
    Mr. Rogoff. In motor carrier safety?
    Ms. Norton. No.
    Mr. Rogoff. We have 27 State agencies right now who oversee 
transit safety.
    Ms. Norton. In the District, this region is emblematic of 
what we have across the country, you don't have anything. These 
agencies have been catch as catch can. The District's agency 
was so pathetic it had no staff. Here, right in the mouth of 
the Federal Government, it could hardly be called an agency. 
Isn't it true that we would have 50 start-ups to meet the 
standards you have laid out in the bill?
    Mr. Rogoff. We think among those 27, they are at a variety 
of strength.
    Ms. Norton. Name me one of those agencies you would 
consider adequate today?
    Mr. Rogoff. You are going to hear from them on the next 
panel, California.
    Ms. Norton. You can't name one?
    Mr. Rogoff. California. They are going to be on the next 
panel. If I could address that, I think your concerns about the 
adequacy of the existing State agencies is right at the heart 
of our proposal. We are not just going to start revenue sharing 
with them. We have envisioned if they want to continue to be 
Federal partners, they are going to have to be much stronger.
    Ms. Norton. Let me tell you what that is going to take, Mr. 
Rogoff. That is going to take legislation in almost all the 
States. This is what I envision. Fifty States, the territories 
and the District of Columbia are going to have to look at what 
they have now. Whatever California has, I believe I can say 
without much contradiction that States, on their own, have had 
no incentive from the Federal Government, and, by the way, why 
not? Why is DOT prohibited from enforcement in this area?
    Mr. Rogoff. It was in the original enacted statute for UMTA 
in 1964.
    Ms. Norton. What was the reason given?
    Mr. Rogoff. The transit universe in 1965 was a dramatically 
different world, 84 percent of them were private.
    Ms. Norton. The only reason is that we didn't have subways 
in the first place.
    Mr. Chairman, I appreciate being able to sit in here.
    Mr. DeFazio. I appreciate the gentlelady but her time has 
expired. We do have a couple other Members who do have 
questions. A lot of this material was covered in the briefing 
memos.
    Ms. Norton. The cost sure isn't covered well, Mr. Chairman.
    Mr. DeFazio. Mr. Schauer is now recognized.
    Mr. Schauer. Thank you very much, Mr. Chairman.
    Mr. Rogoff, I am pleased to have you present this proposed 
legislation to us here in this Subcommittee. I am from the 
State of Michigan where I think there is finally a realization, 
especially in the southeastern part of the State that transit 
in various forms is an imperative for the economy, for 
attracting knowledge-based workers, for reducing carbon 
emissions, for more efficient travel. I appreciate your 
proposal in making sure that all forms of transit are safe.
    I also see this as very preventive in nature. In Michigan, 
we have submitted high speed passenger rail proposals as part 
of a Midwest initiative. There are a number of commuter rail 
initiatives being proposed that intersect with my district and 
a number of other projects in the works.
    I want to mention one of the benefits is prevention. As 
transit is being expanded in my State and in this country, I 
think we can't lose the fact we are not talking about making 
sure that existing transit systems are safe, those that are 
being established, the protocols, all of the systems. I assume 
you would agree.
    Mr. Rogoff. Absolutely.
    Mr. Schauer. I want to clarify something you said. There 
has been appropriate talk about budget impacts, State budgets 
and Federal budgets. Did I hear you correctly that States would 
not bear the cost of these new safety requirements whether they 
opt in or opt out, that there would be Federal dollars whether 
they are State or Federal workers? Is that correct?
    Mr. Rogoff. Indeed. We would alleviate the States of the 
cost of the inspector salaries, the travel, the training. That 
is how we seek to address the fact that the States have stood 
up so little since this program was initiated in ISTEA in 1991.
    Mr. Schauer. We certainly have to pay attention to our 
Federal spending, but this won't add to State budget problems?
    Mr. Rogoff. No. To the extent the States are making 
expenditures of any meaningful nature now would be cost 
relieving to the States and we believe we are doing it at the 
Federal level in a very cost effective way.
    Mr. Schauer. That is good news. That is very good news. I 
will take that back to my State.
    Do you have any idea of the job impact? Since this is not 
adequately being done around the country, do you have any idea 
how many jobs would be created to ensure public safety for all 
of our transit systems?
    Mr. Rogoff. I need to be guarded in that the budget is 
under development. Currently, if we are averaging less than 1 
FTE per agency of 27 agencies, we are effectively having fewer 
than 27 people in this space now. We obviously see the need for 
a much more robust presence, something approaching a tripling 
or quadrupling of that level, albeit getting people with the 
expertise needed to actually oversee these systems in a 
meaningful way.
    Mr. Schauer. Given this economy, jobs.
    Mr. Rogoff. Every job counts.
    Mr. Schauer. Finally, as you develop your proposal, CBO 
will be looking at it, of course, but do you have any idea of 
projected savings overall? We talk about this from an outlay 
standpoint, do you have any idea of determining how much money 
would be saved at various levels by avoiding some of these 
accidents or problems?
    Mr. Rogoff. It is obviously hard to pin down a number, but 
I think there are savings opportunities in a variety of areas, 
not only from avoiding the costly horrors of an accident, but 
also making sure that systems are kept to a state of good 
repair, that there is reliability and they are getting people 
to work and getting people home. The savings is essential to 
the mission of the FTA and the President's goal of reducing our 
dependence on foreign oil. When you see what kind of drain 
happens on the family budget, a big chunk is transportation, 
right after housing.
    Mr. Schauer. I would urge you to look at savings, look at 
job impacts and so forth going forward.
    I would yield back. Thank you.
    Mr. DeFazio. I thank the gentleman.
    I recognize the Chairman of the full Committee, Mr. 
Oberstar.
    Mr. Oberstar. Thank you, Mr. Chairman. I will attempt to be 
brief because I know you have obligations.
    I would like the staff to put up the chart. This displays 
the rail transit oversight programs of the States and the 
existing powers. Just a little over 45 percent, 46-plus percent 
have safety standards. The next is roughly 61 percent, nowhere 
near total. A number of States conduct safety inspections, 
unannounced inspections, issue emergency orders, zero issue 
citations, fifteen percent have the ability to fine the transit 
agency when they are not in compliance, and a number have an 
effect on influencing operations. That is a pretty dismal 
record.
    Anyone who says the Federal Government shouldn't be engaged 
here because States are doing such a great job, just take a 
look at these numbers. States are not doing uniformly a good 
job.
    Under previous management of this Committee, a hearing was 
held in 2006 on the State Safety Oversight Program and the 
result of that hearing was direction to GAO to evaluate the 
States in more detailed fashion. A GAO report came back with 
findings that there is an uneven--a very kind word and we will 
hear more from GAO--safety record that training varied widely 
from State to State with limited staff and insufficient 
funding.
    I think the proposal that the DOT presents responds to that 
to assure that each State will have an adequate number of fully 
trained staff, that they have sufficient authority granted by 
the State legislature and the governor, that they can compel 
compliance by the transit agencies and that those various 
entities have financial independence like our NTSB. I think 
those are reasonable propositions. I think safety is our number 
one responsibility in transportation. Number two is moving 
people and goods efficiently and effectively in commerce, 
reduce congestion and all the rest that we have tried to do in 
this Committee. The first responsibility is safety.
    This proposal parallels what we do in EPA where we give 
States authority and funding to develop a strong program to 
control discharges and be in compliance with water quality 
standards. The Federal Government sets the standards; States 
establish entities to meet those standards. If they have the 
capability, they are given the authority to manage the program 
with Federal oversight.
    We do that in a number of areas. In highway safety, we do 
the same thing. Bridge oversight, I think we should do a lot 
more and we will do more when we get our six year bill passed. 
Mr. Rogoff, that is not your principal responsibility but I 
have to say that every time we have an opportunity.
    Mr. Rogoff. Understood.
    Mr. Oberstar. I think the proposal you are offering follows 
a very clear pattern. Have you determined what the scope of the 
Federal program should be and secondly, the number of 
investigators and oversight authorities that States should 
have? Does that vary from State to State?
    Mr. Rogoff. The legislation clearly enumerates the type of 
powers we would anticipate an adequate State partner to have. 
Ms. Norton did identify something that was accurate and that is 
that in order for those State partners to have those powers, it 
will require action by State legislatures and governors.
    If at the end of that period we do not find them adequately 
empowered and adequately staffed even on our dollar, then we 
would not accept them into the program. In that instance, we 
would have to have the Federal Government fulfill that role. In 
that regard, it is not completely unlike what we do in FMCSA 
with the MCSAP Program where we have to find the States capable 
and adequately staffed to oversee the Federal regulations for 
truck safety.
    Mr. Oberstar. Isn't the underlying principle here the 
Federal Government is providing funds to these transit agencies 
and has an interest in the safe operation of the programs they 
are funding?
    Mr. Rogoff. Absolutely, not only funds to do it but also 
some core Federal regulations that makes clear what they should 
be focused on.
    Mr. Oberstar. That is sufficient for the moment. I think it 
is important to see this chart and also a more detailed rail 
transit safety oversight program document that I think is 
available for all Members in their packet. Yes, it is. I see 
it. I invite Members to review the State safety oversight 
authority in the various State agencies. It is very important 
and I expect you have that information as well, Mr. Rogoff.
    Mr. Rogoff. We do, sir.
    Mr. Oberstar. I expect we will have more consultation as we 
move along with this proposal.
    Mr. Rogoff. I would just want to add that Mr. Mica had some 
fatality rates that I think were important to note. We would 
also share some data for the record as it relates to collision 
and derailment rates that we see as quite troubling in the rail 
transit space that we think is also worthy of the Committee's 
attention. We would submit those for the record.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] 53951.021
    
    Mr. Oberstar. Yes. I am somewhat skeptical though of 
figures in transportation safety that measure fatalities by 
hundreds of millions of miles or tens of thousands of trips 
taken. Each one of those is a human being, has a family, has 
relationships and putting a dollar value on human life, we have 
seen it in aviation, in rail transit, seen it in maritime. 
There is always an attempt to calibrate the value of the human 
life. That is terribly misleading.
    Mr. Rogoff. I think, also, sir, we have very few fatalities 
in the pipeline safety area, we have very few fatalities in the 
HAZMAT safety area, but we don't talk about not regulating in 
those areas because they are important and there is an 
important federal safety nexus all the same.
    Mr. Oberstar. Thank you, Mr. Rogoff.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Mrs. Schmidt.
    Mrs. Schmidt. Thank you. I have a couple of follow-ups.
    First, we all want to make sure that safety is paramount. 
In doing so, we have to figure out a way to pay to make sure we 
have the safest lines possible. We also have to make sure that 
we don't increase our Federal deficit. I know there are ways we 
can cut other programs to meet that.
    One of the areas I am looking at is the Urbanized Area 
Formula Grants which is about a $5 billion program. I know we 
have been doing this for about 20 years. It has been an 
automatic in any budget. That goes for bus shelters and 
historic preservation, pedestrian and bicycle accidents, 
transit connections, signage and public art and landscaping.
    If this is going to cost your agency $100 million or right 
around that figure, if you took one percent out of the $5 
billion Urbanized Area Formula Grant that would get you half of 
that money. That might be a way of getting to your goal and not 
increasing the Federal deficit. That is my biggest concern.
    The other matter I am concerned about is in the 
Constitution we have Federal and State. Since 1964, when we 
first started federally funding with streetcars by electrical 
co-ops and city governments to the first Federal transit 
funding bill in 1964, transits have been considered to be an 
inherently local activity. Transit is not an interstate 
commerce and from the big picture perspective I am concerned 
about this takeover.
    Would it be more costly, less costly or do you know, if we 
provided for the States that are not up to par like California 
appears to be in Federal safety standards, grants that would 
require them to do so, keeping in mind anytime a State spends 
money, it has to balance its budget in doing so, whereas the 
Federal Government does not. When you look at costs and raising 
the deficit, when comparing a State to the Federal level, the 
State doesn't add to the deficit but the Federal spending can 
add to the deficit.
    My biggest part of the question is how do we do this and 
control the cost in doing so?
    Mr. Rogoff. I would like to take those two issues in order. 
First, if funding had to be derived or some program cut back in 
order to pay for this initiative, I would not go to Urbanized 
Area Formula Grants because, Mrs. Schmidt, you identified 
things like bus shelters and other expenditures that can be 
used for those dollars but those formula grants are the core 
Federal investment that reaches about 40 to 50 percent of the 
transit capital expenditures of these major rail systems. 
Taking down that money I don't think advances the safety 
agenda.
    As it relates to what we should do about funding this in a 
cost effective manner, I believe we have done that by involving 
State partnership. As I said earlier, you will see in February, 
I think a very fiscally responsible 2011 budget brought forward 
by the President that will include increments for this.
    But, I am not prepared to say that the offsets for that 
increased spending would necessarily come out of the FTA, out 
of DOT or elsewhere in the Federal budget.
    Mrs. Schmidt. I am alluding to the one percent required for 
enhancements.
    Mr. Rogoff. Oh, transportation enhancements?
    Mrs. Schmidt. Yes.
    Mr. Rogoff. That is a highway program. That comes out of 
the Federal-aid highway obligation ceiling. That program, I 
think, has been debated at length and there have been floor 
votes in the House over the value of that program.
    Frankly, we view that program as having merit in a variety 
of areas because it does a lot of things to what we call 
``attack the last mile,'' that is, to provide bicycle and 
pedestrian access to get people to transit services. We 
wouldn't necessarily see that as a valuable offset.
    Mrs. Schmidt. One percent of your urban area grants have to 
be used for enhancements and that is what I am going after, 
that one percent of your grants.
    Mr. Rogoff. The transit set-aside for enhancements.
    Mrs. Schmidt. All I am saying is we are into tough times 
now and we have to make some hard decisions. I don't want to 
compromise safety but I don't want to increase our Federal 
deficit. This is something we have to be concerned about. What 
would be the problem with taking a little bit of that one 
percent enhancement and using it for safety?
    Mr. Rogoff. Mrs. Schmidt, I think you will see when we 
bring forward our proposal that we will fund the safety 
initiative in a responsible manner which across the President's 
entire budget will be fiscally responsible. I don't necessarily 
believe that the FTA, anymore than any other area of spending 
within DOT or outside of DOT, but that is for the President to 
determine and OMB to assist him in determining how to best 
balance the entire picture.
    I do not believe that putting my mode into the safety 
business necessarily needs be paid out of other transit 
investments.
    Mr. DeFazio. To follow up, are you saying this would be a 
General Fund request?
    Mr. Rogoff. We can go back and forth for a while and I will 
still seek to not end up in a corner because the 2011 budget 
isn't out yet.
    Mr. DeFazio. We will see what we see when we see it.
    Mr. Rogoff. I am afraid I need you to accept that answer 
for now.
    Mr. Oberstar. Mr. Chairman, before you go on, I just want 
to say to my dear friend from Ohio, Mrs. Schmidt, on that noble 
suggestion, but over my dead body.
    Mrs. Schmidt. Fair enough.
    Mr. DeFazio. I think with that, we have concluded the 
Administrator's testimony. Thank you very, very much for your 
generous grant of time and we will move on to the next panel 
being seated.
    Mr. Oberstar. I want to take this opportunity in this 
setting to announce the sad news of the loss of our Chief 
Counsel, Walter May, of the Special Investigating Committee on 
the Federal-Aid Highway Program begun in 1959 at the direction 
of Speaker Sam Rayburn and under the Chairmanship of my 
predecessor, John Blatnik.
    Walter May led the experienced team of former FBI 
investigators that served on the McClellan Rackets Committee 
staff under then Chief Counsel Bobby Kennedy. When they 
completed their work, Speaker Rayburn designated John Blatnik 
to chair a Special Investigating Committee on the Federal 
Highway Program at the outset of the Interstate Highway 
Program's implementation.
    He was concerned that there were reports of fraud, 
corruption, and inappropriate activities and right-of-way 
acquisition, construction of the interstate and wanted to stop 
it, as Rayburn said, ``Before it gave this program a bad 
name.''
    My predecessor, John Blatnik, had been a combat paratrooper 
in World War II and parachuted behind Nazi lines in what is 
today Slovenia, rescuing American airmen shot down on the 
return bombing runs over the Ploiesti oilfields in Romania. He 
was a tough guy, a microbiologist and scientist, but he could 
stare death in the face and stand up against it.
    Rayburn picked the right guy. Blatnik picked the right 
team--Walter May, John Constandy, George Kopecky--and the 
results of those investigations was 36 people went to Federal 
and State prison. When they started, no State had internal 
audit and review procedures; no State had accounting to keep 
track of the tens of millions of dollars, in those days lots of 
money, that they were receiving from the Federal Highway Trust 
Fund.
    As a result of the hearings, every State established 
internal audit and review procedures; every State established a 
tracking program for its Federal funding. Walter May led that 
whole investigative team. The legacy was absolutely 
extraordinary. They stood up to enormous political pressure in 
the most significant case and completed their work on the 
Massachusetts Department of Public Works.
    Walter May was from Massachusetts, from Boston. He had been 
the Circulation Editor for the Boston Globe before he went to 
the Bobby Kennedy staff. The Committee had compiled a record of 
abuse in the Department of Public Works in the State of 
Massachusetts and was ready to publish its report. This was in 
September 1962. There was a very intense Senate primary between 
Edward Kennedy and Edward McCormick, nephew of the then Speaker 
John McCormick.
    The Committee staff wondered ``What are we going to do now? 
We have the documentation, we have the report.'' Walter May and 
John Blatnik got together and said, ``We have to tell the 
Speaker and then we have to publish this report. Speaker 
McCormick, to his credit, said, well, Walter, you have the 
details; John, you have the facts, release the report.
    The opening paragraph of that report read, ``The 
Massachusetts Department of Public Works is a cesspool of 
political pestilence.'' It was the front page of the Boston 
Globe right in the midst of this hot Senate race. Walter knew 
the right thing to do and so did John Blatnik.
    The Committee staff then went on to oversee the other 
programs of the Committee on Public Works, including later the 
Clean Water Act, our EDA programs and the Appalachian programs, 
and was the first of a real program of oversight and 
investigation conducted by the House branch of the national 
legislature.
    We all owe Walter May a great debt of gratitude for his 
service. He died at age 91. I didn't know he was ill. Something 
went amiss in the last two days and I just now got the word. I 
mourn for the loss of a dear friend, a mentor, a leader. We all 
owe Walter May a great debt of gratitude for the legacy he left 
us of unparalleled adherence to truth, facts, and corrective 
action.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman for the remembrance and 
the words.
    We are going to try to move very quickly here. They are 
saying there will be votes around noon, so I would suggest I 
have read all of your testimony and I assume other Members, 
those who aren't here, for the most part, have either read it 
or not, so I would suggest two minutes. You can summarize what 
you want to say and one minute to react to the Administration 
proposal.
    With that, we will go to Ms. Siggerud. You won't be 
commenting on the Administration's proposal but go right ahead.

TESTIMONY OF KATHERINE A. SIGGERUD, MANAGING DIRECTOR, PHYSICAL 
 INFRASTRUCTURE, U.S. GOVERNMENT ACCOUNTABILITY OFFICE; ROBERT 
   J. CHIPKEVICH, DIRECTOR, OFFICE OF RAILROAD, PIPELINE AND 
  HAZARDOUS MATERIALS INVESTIGATIONS, NATIONAL TRANSPORTATION 
 SAFETY BOARD; RICHARD W. CLARK, DIRECTOR, CONSUMER PROTECTION 
 AND SAFETY DIVISION, CALIFORNIA PUBLIC UTILITIES COMMISSION; 
       AND WILLIAM W. MILLAR, PRESIDENT, AMERICAN PUBLIC 
                   TRANSPORTATION ASSOCIATION

    Ms. Siggerud. I will do my best.
    Chairman DeFazio, Members of the Committee, thank you for 
inviting us to this hearing. I am going to cover two topics 
today. First is the results of a report we issued to this 
Committee in 2006 about the State Safety Oversight Program. 
Second is our observations that we have on an overview we 
received of the DOT proposal.
    As you know, the Oversight Program that currently exists 
covers rail transit systems that are not subject to FRA 
oversight and that receive New Starts or Urbanized Area Federal 
funds. Under this program, the States oversee transit systems 
and FTA's role is to oversee those State agencies.
    We found in 2006 the State oversight and transit agencies 
generally view the program positively. For example, they told 
us the required safety plans were beneficial. Reviews by State 
safety oversight agencies in some cases had helped them to make 
important safety related capital investments.
    Our report also found several challenges to the program's 
effectiveness. Funding challenges in State government limited 
the number of staff to a level that 14 of the 24 we contacted 
said were not sufficient. We found that expertise varied 
significantly among the State agencies, 11 had staff without 
expertise in rail safety. Nineteen of the State agencies at 
that time had no enforcement authority if transit agencies did 
not follow their safety recommendations or violated standards.
    Finally, FTA had fallen behind in its management and 
oversight of the program. We recommended that FTA reinvigorate 
the program, establish a training curriculum and provide funds 
to assist with travel for training. FTA has acted on those 
recommendations in the intervening years.
    While we have received only a high level briefing on DOT's 
proposal, we can provide observations on how, if enacted, it 
would address the challenges I mentioned. The proposal is 
likely to address the challenge of staffing levels because it 
would require FTA certification of State programs and provide 
funds to these agencies. By providing FTA explicit enforcement 
authority, it would also address States having no power to 
compel safety improvements by transit agencies.
    In conclusion, Mr. Chairman, there are also several issues 
for Congress to consider with regard to this proposal. First, 
oversight and enforcement is it better accomplished at the 
State or Federal level, keeping in mind this may vary by State 
and transit agencies.
    Second, this is very important, is enforcement tools. What 
is appropriate given the transit system's need to serve their 
riders reliably that are typically funded by fares and taxes? 
Third, what is the cost of the program and, as you mentioned, 
what would be the source of those funds? Finally, what would be 
the challenges in Federal regulation of an enormously varied 
industry?
    That concludes my statement. I would be happy to answer 
questions.
    Mr. DeFazio. Thank you for that succinct summary.
    Mr. Chipkevich, Office of Railroad, Pipeline and Hazardous 
Materials Investigations, NTSB.
    Mr. Chipkevich. Thank you, Chairman DeFazio and Members of 
the Subcommittee. Thank you for the opportunity to appear on 
behalf of the National Transportation Safety Board.
    Since the 1970s, NTSB has made numerous safety 
recommendations to the Department of Transportation and the 
Federal Transit Administration's predecessors to improve the 
safety of rail transit systems. Our recommendations have urged 
the Department of Transportation to seek the legislative 
authority necessary to establish minimum Federal safety 
standards, enforce compliance, conduct inspections and conduct 
accident investigations.
    We have also recommended that the Federal Transit 
Administration establish safety requirements to address the 
following specific issues: the crash worthiness of rail transit 
passenger cars; the use of event recorders to better identify 
and understand safety issues directly related to accidents; and 
the adequacy of operating rules, execution and compliance, 
track safety and rest requirements for transit operators.
    The NTSB has also made a number of safety recommendations 
to improve State safety oversight programs. We support 
legislation that would give the Department of Transportation 
authority to establish and enforce minimum rail transit safety 
standards. This is particularly important when State safety 
oversight programs do not provide adequate safety oversight.
    Thank you. I would be happy to answer any questions at the 
appropriate time.
    Mr. DeFazio. Thank you, sir.
    With that, we would turn to Mr. Clark, Director, Consumer 
Protection and Safety Division, California PUC.
    Go ahead, Grace.
    Mrs. Napolitano. Thank you, Mr. Chairman, for today's 
hearing. I am very happy and honored to welcome Richard Clark, 
Director of the Consumer Protection and Safety Division of the 
California Public Utilities Commission. CPUC has been in my 
directory for many years, working directly with them. Director 
Clark and I worked together on many safety transportation 
issues over the years.
    He has testified at the Railroad Subcommittee hearings held 
in my district in 2007 regarding railroad safety issues which 
led to some of the amendments or actually enactment of the 
Railroad Safety Act and California has greatly benefited from 
such a move.
    He has always provided us with wise counsel. In fact, some 
of the amendments brought to this body have come from CPUC and 
Mr. Clark's office. He has been working with other elected 
officials in my district and was burdened with multiple 
railroad accidents in 2006 and 2007.
    He and his staff work diligently every day to ensure the 
safety of people in the great State of California and I am glad 
the Committee has recognized your leadership. Having you here 
is a great boon to us. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Clark. Thank you, Congresswoman Napolitano.
    Mr. Chairman, Members of the Committee, I am pleased to 
have the opportunity to come before you today. We look forward 
to examining the legislative proposal in detail that was 
outlined by Secretary LaHood and Mr. Rogoff and working with 
them and you going forward.
    As many of you know, the PUC is a constitutionally-derived 
independent agency which, among other things, oversees the 
safety and security of all rail operations in the State of 
California, including railroads, both freight and passenger, 
rail transits and rail crossings. The PUC has had this 
responsibility since 1911. PUC has quasi-legislative rule-
making authority and enforcement authority with the power to 
assess penalties of up to $20,000 per violation and to shut 
down unsafe rail transit operations.
    There are 12 rail transit operations systems under CPUC's 
jurisdiction. We are responsible for investigating all 
reportable accidents, conducting regular audits and inspections 
of rail transit systems. Moreover, all rail transit agencies' 
new projects, extensions and retrofits must pass the rigorous 
CPUC safety certification process before we will allow them to 
carry passengers. We believe strongly that safety is no 
accident.
    The PUC Rail Transit Safety Program has 20-1/2 positions 
and an annual budget of approximately $3.5 million. The PUC 
strongly supports the Obama Administration's proposed 
regulatory initiative. We understand the Act as proposed will 
not preempt States from imposing their own regulations as long 
as they are at least as strict as Federal regulations that will 
provide us with much needed training, better communication 
between us and the Federal Transit Administration and much 
needed financial support for achieving adequate staffing 
levels.
    Thank you for this opportunity to appear before you. I 
would be happy to answer any questions you might have.
    Mr. DeFazio. Thank you, sir.
    Mr. Millar, President, American Public Transportation 
Association.
    Mr. Millar. Thank you, Mr. Chairman and Members of the 
Committee, we are pleased to be here on behalf of the 1,500 
members of the American Public Transportation Association. I 
have three points to make in my oral testimony.
    First, public transportation systems in America are safe 
and well used. In 2008, Americans took 10.7 billion trips on 
public transportation, some 15 times the number of trips taken 
on our domestic airlines. According to DOT data, we certainly 
heard in the first panel repeated many times, a person 
traveling on public transportation in America is many, many 
times safer than if they were a passenger in a motor vehicle. 
That said, we are always looking for ways to make public 
transit even safer.
    My second point, APTA and the transit industry have worked 
for decades to develop and promote wide ranging safety 
management programs and standards a well as conduct safety 
audits to continually improve our safety record. APTA has 
developed nearly 100 consensus-based, voluntary rail transit 
safety standards, has conducted more than 415 safety audits 
over the last 20 years and we would hope this could be used as 
the basis for whatever additional safety work the Committee may 
determine is appropriate.
    Third, while it will take many, many actions to improve 
transit's enviable safety record. It will also take significant 
financial investment, financial investment to bring systems up 
to a state of good repair; financial investment to make sure 
the men and women who work in our industry are well trained and 
are able to do their jobs in the safest way possible; and 
financial assistance to correct whatever safety deficiencies 
might be identified. If safety is to be improved to the so-
called next level, investments must be made in all these areas.
    Mr. Chairman, we look forward to working with you, with the 
Administration and others as this topic moves along and 
legislation is developed.
    Thank you very much.
    Mr. DeFazio. Thank you.
    We will try to move through questions quickly so that the 
panel will not be delayed while we have votes.
    Mr. Clark, the California PUC I think is unique in terms of 
its staffing and its oversight. I am interested that you still 
support this proposed regulatory initiative. Would you like to 
give me a couple reasons why?
    Mr. Clark. Yes, sir. I would be happy to.
    Primarily is training. We do not have access to adequate 
training for our staff. Much of our expertise is gleaned from 
on-the-job training, from institutional knowledge we have 
developed over the years and that sort of thing. We could use 
some really good training.
    Mr. DeFazio. You would like to see some sort of Federal 
certification process which includes a training regime?
    Mr. Clark. Yes, sir.
    Mr. DeFazio. Go ahead.
    Mr. Clark. That is really the biggest thing for us, the 
training element, because our vision for our organization is 
that our people will be experts in their fields and we don't 
feel that we can achieve that level of expertise at this point.
    Mr. DeFazio. Anybody care to comment on what I opened with 
which is I think it is hard to de-link the backlog of 
investment. We can have safety inspectors and that is great, 
but if the lag bolts are rotten or totally disintegrated, 
unless we are pulling them back and checking them physically, 
or we have a computer program that says, the life of this in a 
certain area is X and they must be replaced, anyone want to 
comment on the huge backlog in investment and the view of the 
Obama Administration that you are just not ready to spend the 
money, there is no way to spend the money, infrastructure 
should be at the bottom of the list after green grids and God 
only knows what other fanciful things they want to pay for now? 
Anybody want to comment on that? Mr. Millar?
    Mr. Millar. Mr. Chairman, I would be very happy to comment.
    You are correct in making the link between state of good 
repair and safety. There is no doubt that if systems are kept 
up to a safe system, if the latest and safest technologies can 
be applied, it goes without saying that there will be safer 
operation.
    The Federal Transit Administration did us all a good 
service last year in completing a report on the state of good 
repair in the industry. They found that roughly a quarter of 
the Nation's bus and rail assets are in need of attention and a 
third of the largest transit systems, both bus and rail, are in 
marginal or poor condition. It is clear that additional 
investment needs to be made.
    As was apparent from colloquy between yourself, the 
Secretary and the Administrator, this Administration has done a 
good job of getting the ARRA funds out there, but we need 
additional money to bring these systems up to a state of good 
repair.
    Mr. DeFazio. Unfortunately, the President is unaware that 
his department has done a good job because his economic team 
thinks the money hasn't been spent but maybe that message will 
get through.
    Does anyone care to quantify the needed investment? I 
believe someone had in their report. Was it you, Ms. Siggerud? 
Someone quantified the backlog.
    Ms. Siggerud. We did not. I believe Administrator Rogoff 
quoted a report on the state of good repair that did put a 
number on that. Am I right about that?
    Mr. DeFazio. Mr. Rogoff?
    Mr. Rogoff. The state of good repair report that we issued 
earlier quantified for the seven largest rail systems that 
serve about 80 percent of the rail transit traffic a backlog of 
roughly $50 billion.
    Mr. DeFazio. Fifty billion?
    Mr. Rogoff. Fifty billion. We are now, at the Secretary's 
insistence, surveying a larger universe, going to the 
additional rail transit providers that have not given us that 
data to give us a more robust figure which is why, as I said, 
the state of good repair has become a priority not only within 
the FTA but for the whole Department across all modes.
    Mr. DeFazio. Mr. Millar, I believe you were at a press 
conference last week and you threw out a $20 billion number 
which I believe was ready to go in 120 days. Is that part of 
this $50 billion that Mr. Rogoff is talking about?
    Mr. Millar. Yes, sir. Last week we released a recent survey 
of our members that indicates over $15 billion worth of 
projects.
    Mr. DeFazio. Is this pie in the sky or do you think this is 
reality?
    Mr. Millar. I think it is reality. I think the existing 
ARRA funds have allowed us to really step up our program. Now 
they are up, they are ready to go, they know to take on new 
projects, they know how to do it, so I believe we could wisely 
invest many, many, many billions of dollars in this area.
    Mr. DeFazio. Anyone else? Mr. Clark.
    Mr. Clark. Mr. Chairman, I can comment on the state of good 
repair in the State of California in some instances such as San 
Francisco, MUNI, where we have had a number of derailments, 
where we found some serious problems with the track not being 
inspected, not being repaired and there are some issues with 
dead man switches that are not being tested and adjusted and 
that sort of thing that may or may not have been cause of an 
accident.
    In terms of cost recovery, there's been a lot of discussion 
about cost recovery here. Quite frankly, with just two of the 
collisions that happened in San Francisco between, in total, 
four MUNI vehicles, we could have paid for my entire program 
for a year from the cost of just those two collisions. That is 
just the equipment, not the injuries and that sort of thing.
    Mr. DeFazio. Can you put a number on the backlog at San 
Francisco MUNI? We have one for BART. I haven't seen anything 
for San Francisco MUNI.
    Mr. Clark. I am sorry. I don't have that number.
    Mr. DeFazio. If you can come up with that number subsequent 
to the hearing, it would be great, or please get MUNI to 
provide it. It would be useful.
    Ms. Siggerud.
    Ms. Siggerud. As this hearing has pointed out, there really 
are two parts to the safety question we are addressing, the 
regulatory issue we are focused on today as well as the ability 
of transit agencies to make appropriate investments. We are 
undertaking a new study at the request of your counterpart in 
the Senate, to look at the challenges the transit agencies are 
facing in making those kinds of safety-related investments.
    Mr. DeFazio. Thank you.
    Mr. Boozman. We will move quickly through the questions 
because we are not going to come back.
    Mr. Boozman. Thank you, Mr. Chairman.
    Very quickly, Mr. Clark, can you summarize the advantages 
of the State safety oversight?
    Mr. Clark. The major advantage of State safety oversight is 
that all the different systems in the State of California are 
different. Every one is different, every one needs a separate 
set of eyes with particular expertise developed with regard to 
that system. I don't think it is possible at the Federal level 
to have that level of flexibility. We do strongly support 
minimum standards, but in terms of having that sort of 
flexibility at the State level, we think we are in a position 
to respond more quickly to particular situations.
    Mr. Boozman. Along with that, what State authorities are 
necessary for successful State safety oversight?
    Mr. Clark. The major one is that each of the agencies has a 
system safety program plan and that they abide by that system 
safety program plan and that the agency that oversees their 
implementation of that, as well as their accident 
investigations and those sorts of things, that agency be 
separately funded, that it have rulemaking authority, that it 
have enforcement authority and that it be not an ancillary 
inspection force for the transit agency but an overseer of the 
process itself to ensure that the agency is doing what it 
should be doing on a more global level.
    Mr. Boozman. Very good. Lastly, what kinds of economy of 
scale activities would the Federal Government be able to 
provide successfully?
    Mr. Clark. I think they would be able to help us on 
economies of scale again with minimum standards, with training, 
with certification, with doing background checks on the 
employees that we hire to do the inspections of these rail 
transit agencies. There are probably others I am not thinking 
about at the moment.
    Mr. Boozman. That is all I have. Thank you, Mr. Chairman.
    Mr. DeFazio. We have three Members. Ms. Norton will assume 
the Chair upon our departure. There are three Members and if 
you could do about three minutes each, that way everyone can 
get in questions. Ms. Edwards is first.
    Ms. Edwards. Thank you, Mr. Chairman. I just have one 
question, a particular one with relation to systems like the 
WMATA system here in the Washington metropolitan area that 
actually crosses three jurisdictions and how you would envision 
a safety oversight role where you essentially have three States 
that would have that responsibility? I am not quite clear how 
that would work. Perhaps Administrator Rogoff if you could 
comment on that?
    Mr. Rogoff. We actually do have a provision specifically in 
the bill that addresses multi-State systems to make sure it is 
well understood that they have a unified approach, a single 
entity that is in charge, and we don't have a sort of diffuse 
responsibility where no one takes ownership and everyone points 
the other way. Only then would we certify that State partner as 
being adequate.
    Ms. Edwards. Just out of curiosity, do you envision then 
you take a system where you have three jurisdictions that have 
responsibility and one State makes its regulatory decisions 
that meet Federal standards, another State might have 
regulatory standards that exceed Federal standards and how you 
balance that?
    Mr. Rogoff. I think we would want a common picture and for 
that matter, WMATA would need to have a common set of 
enforcement authorities they would be working under. They would 
certainly be working under a common, Federal safety regime. We 
believe we can get at that, but you are right. In terms of us 
certifying a State safety partner as being adequate, the multi-
State systems will have the added burden of showing 
consistency.
    Ms. Edwards. I look forward to continuing to work with you 
all to figure out that quotient and from an implementation 
standpoint, whether it is really something that could work 
given the kind of diffuse responsibilities.
    Mr. Rogoff. Where it doesn't, it would become a Federal 
responsibility.
    Ms. Edwards. Thank you very much. No further questions.
    Mr. DeFazio. Mrs. Napolitano?
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Mr. Clark, Mr. LaHood stated in his testimony the new 
transit safety program, the States would not be preempted from 
establishing additional and more stringent standards. Would you 
agree with the statement? Do you feel States should not be 
preempted from establishing more stringent safety standards for 
railroad operations to protect against local safety hazards? Do 
you feel this is currently a problem and would you explain why?
    Mr. Clark. I believe the law you are speaking of actually 
is one that is administered by the Federal Railroad 
Administration with regard to freight railroads and certain 
passenger railroads. We strongly object to the preemption that 
exists in railroad safety. We are very happy to see that is not 
the case in the proposal here with the Federal Transit 
Administration.
    Mrs. Napolitano. Going back to the infrastructure very 
quickly, there were several derailments in my area as I stated 
in my testimony. A lot of it was due to the age of the rail. It 
has a life I found out--the joint and bar, the hairline crack 
that could not be detected with the system they have in place 
now and the employees' down time, the rest periods that they 
have in between, also the training that we found out a couple 
of years ago was a CD and a book and here is your training new 
employees.
    Are you going to require them to be able to have a better 
training system if we implement something in our rulebook 
requiring that maintenance be provided in any funds Federal 
Government may be giving towards that end?
    Mr. Clark. Again, I believe you are talking about the 
freight railroads. That is where all the derailments occurred 
and that sort of thing. They are doing much better in that 
regard. The Federal Railroad Administration has stepped up its 
inspection effort. It is running their geometry cars over those 
tracks much more frequently than before. We are quite happy 
with the downward trend in the broken rail, the rail problems 
and track problems we have had.
    I am sorry, the second part of your question had to do with 
the funding?
    Mrs. Napolitano. You talk about assistance in training, 
making it more standard, being able to have employees 
understand the consequences of not following some of the rules 
and regulations that you have.
    Mr. Clark. Under the Federal Transit Administration's 
proposal, as we understand it, that would be very helpful for 
us in terms of our being able to increase our expertise so that 
we can then relay to the people who are responsible for safety 
within their organizations, within the transit organizations 
what their responsibilities are and have the means, the manners 
and the methods to be able to enforce those standards if they 
are not being adhered to.
    Mrs. Napolitano. Thank you very much, Mr. Clark.
    Thank you, Mr. Chairman.
    Mr. DeFazio. I thank the gentlelady.
    With that, I am going to turn the gavel over to Ms. Norton 
who will ask a final round of questions. After that, she will 
dismiss the panel. I just want to thank you on behalf of the 
Committee for your time, your testimony and your advocacy here. 
It will help as we build a new safety oversight system.
    With that, Ms. Norton will assume the Chair.
    Ms. Norton. [Presiding] I want to thank the Chairman again 
for initiating this hearing before the year is out. It is not 
only important to us, but I can tell from the response of you 
and your testimony that it is equally important to you.
    I would like to ask Ms. Siggerud, I notice in your report 
you indicate that the safety program certainly enhances safety. 
Everyone agrees, including the States. You also said that the 
FTA had very little information, had not been in this business, 
in other words. I was struck by a sentence in your report at 
page two that said, ``In 2006, 13 State oversight agencies were 
devoting the equivalent of less than one full-time employee to 
oversight functions.'' What does that tell us about the 
capacity of States to quickly take on this responsibility?
    Ms. Siggerud. Ms. Norton, I think that is an important 
challenge. One thing we do need to keep in mind when we look at 
the FTE numbers which are a concern is that many States did use 
contractors to supplement the work they were doing.
    I think as you pointed out earlier in your questioning, 
there will be a somewhat elongated transition period if this 
legislation is enacted. There will be States that will have to 
enact their own legislation to provide enforcement authority to 
the States to be able to actually carry out the Federal mandate 
that will occur and there will be a lot of training and 
resource increases that need to happen in terms of getting 
States able to carry out what the Federal Government has in 
mind.
    I do want to point out that enforcement is a very important 
part of that. We haven't heard a lot about what the actual 
enforcement mechanism would be. When we have looked at 
regulations in transit, for example, with regard to the 
Americans with Disabilities Act, generally speaking, the FTA 
has been reluctant to withhold funds because of the impact that 
has on the transit system and its riders.
    Ms. Norton. Here it would be on the hook for people they 
may already be paying for because essentially, these agencies 
are paid for by the Federal Government. In principle, I like 
the idea. If, in fact, we had a system as we often do when we 
enact legislation, where agencies were already in the business, 
it would seem perhaps more realistic to me.
    In principle, I think it has a lot to do how you get 
legislation passed here. You don't set up a whole new agency. 
You say to the States, all 50 of you and the territories and 
D.C., you set up your own agencies and we will pay for them. I 
don't have any problem with that as long as we have the kind of 
oversight that would be necessary as you may have been able to 
tell from my past line of questioning.
    I have been in Congress long enough to ask up the road 
questions. The up road question to me is whether or not you 
think, as I indicated before, that start up and reproducing 50 
different State agencies is the most efficient way to do 
Federal regulation?
    Ms. Siggerud. I guess I would observe, Ms. Norton, even 
though we have relatively low numbers of staff devoted to this 
effort in States, there is something in place in every State 
that has a regulated transit agency at this time. It certainly 
is not uncommon for the Department of Transportation and other 
Federal agencies to go through the State agencies to enforce 
and oversee activities in those States.
    Ms. Norton. You usually have a Federal agency that also has 
power.
    Ms. Siggerud. That is true.
    Ms. Norton. Here it looks like Federal agencies new to the 
area. Let me ask you, besides California, and I want to ask the 
California representative a question, are there agencies that 
given your testimony, you would consider functioning agencies 
that the public should trust safety to as I speak right now?
    Ms. Siggerud. I would mention two other agencies along with 
the California case which is the gold standard with regard to 
this particular activity. The New York State agency also 
devotes a significant number of resources and has some 
authority as does the State of Massachusetts oversight agency.
    Ms. Norton. These systems have grown like topsy. That is to 
say, in the beginning, I don't know why someone would say you 
can't, I don't understand why that was put in because it was 
something that literally kept the States from regulating. I got 
no answer to why someone would say you can't, but I can 
understand why there was little regulation when who was doing 
it was New York, even D.C. was late to the notion. Of course 
California is the kind of State that has always been in the 
forefront of regulation.
    We found here that the cars were not crashworthy and now 
questions are being raised as to whether or not even the newer 
cars--these were 1970s cars--are crashworthy. One of the 
reasons is there are no national crashworthy standards. Where 
would you expect those standards to come from so we wouldn't 
have an accident like the one we had in the District of 
Columbia?
    Ms. Siggerud. I would certainly want to hear from 
Administrator Rogoff on this as well, but I imagine the 
Administration is talking about developing what we typically 
would call performance-based standards since the industry to be 
regulated here is very wide--light rail, heavy rail, incline 
planes, trolleys, cable cars, a variety of different types of 
rail transit that would fall under this legislation.
    The performance-based standards would essentially state 
expectations for how the system would perform. The technical 
standards would need to be developed on an agency by agency 
basis, either by the Federal Transit Agency or by the state 
agencies that would be empowered to do the regulating.
    Ms. Norton. let me ask you, Mr. Rogoff, the crash worthy 
standard and we are talking about regulation that at least sets 
a floor across States, wouldn't the crashworthy standards have 
to be centrally administered by the Federal Government?
    Mr. Rogoff. Certainly a Federal standard in that area would 
not only be beneficial to the individual transit agencies but 
for the manufacturers that need to supply the industry. They 
would need to know what they're building to. We would obviously 
envision regulating in that area if we found it to be a true 
safety risk that needed to be addressed soon.
    The issue of the crashworthiness of the Series 1000 cars is 
an interesting test because it is one of these situations where 
we also have to be cognizant of what we are putting on the 
agencies. If WMATA's choice right now was to get rid of the 
Series 1000 cars, it would eliminate one-third of their fleet. 
That is not practical or, for that matter, safe if it puts all 
of those WMATA riders on the highway. We need to balance that 
against the need to do better by way of the crashworthiness of 
the vehicles.
    Ms. Norton. What you said is very, very important because 
in some prior conversation you had, discussion you had about 
cost benefit. Let me pose this to you and any of the panel. 
NTSB has been before us and perhaps knows of our concern about 
this.
    The NTSB saw the cars that were involved in the June 22 
crash as not crashworthy multiple times before. They came back 
to Metro with the appropriate recommendation and they did it 
for at least 10 years after there was crash after crash until 
the ultimate crash occurred. There were people who died but 
nothing like what we had on June 22. Each time, Metro told them 
the truth. Metro did not have the funds to invest in a third of 
its fleet, so it continued to use the trains.
    Metro has a favored position because for five days of the 
week, Federal employees ride Metro. The Federal Government 
would have to close down tomorrow if Metro closed down 
tomorrow. It took those of us in this region half a dozen years 
to even get the bill authorized. Over and over there were 
hearings that said, this system needs a rush, a real spurt of 
cash for capital improvements only. Not until 2007 when the 
Democrats came to power did it even get authorized after 
several years of trying to get it done and this year after the 
June 22 crash, the first $150 million of $1.5 billion over ten 
years was appropriated.
    There is not another system in the United States that has 
the call on Federal funds. Even though we had a life and death 
of the Federal Government call, we were hardly able to get the 
funds out and only after a deadly crash occurred did we. No 
State is in a position now or will be in a position for a very 
long time to do investments to assure that these kinds of 
safety first--a lot of words here are spoken--replacements 
occur.
    At the NTSB hearing--I see we have an NTSB witness here--I 
pointed out to the witness that after the crash occurred, the 
union which operates the trains every day suggested without 
having any safety standards, that at least the common sense 
thing for the NTSB to say and they were saying it now to Metro, 
was at least don't put the oldest cars in front. All they did 
was look at the evidence and the evidence was that the people 
who were not in those cars survived and all of the deaths 
occurred in the older cars. They said, why don't you run them 
at the end.
    Let me tell you, nobody has done any work because nobody in 
this country had had any requirement to do any work on crash 
worthiness. As a common sense standard, without any expertise 
but as the best it could do, that is what Metro has done.
    My concern is not so much with that as a standard, my 
concern is that the NTSB continued to give a recommendation 
after each and every crash that it knew could not be met by the 
transit system here. Unless NTSB or some other entity, perhaps 
the one we are setting up, is equipped also to look at first, 
what you should do, then if the District of Columbia, Maryland 
or Virginia and California, even, which has put a lot of 
regulations into effect, says you can see with your bare eyes, 
we can't do that, isn't the only other thing to do to have the 
agency also equipped to offer standards pending the state of 
the art replacement standard or are we going to be left in the 
position that this region was left in, parroting what any fool 
could see could not be done until people were killed and the 
Federal Government got off of money it should have gotten off 
of at least half a dozen years ago.
    I am interested not in parroting safety first here. I am 
interested in what happens when every transit system in the 
United States hears these standards and says, are you kidding 
me. What then does the safety agency say or are we going to be 
left as we were with NTSB saying, you heard what I said, go get 
the money? I would like all of you to take on that because this 
is what is on the minds of many of us here in this region.
    As it is today, if they use every bit of this money, it 
will probably take four years of this ten year money just to 
replace these cars, what do we do with all the other capital 
improvements they are supposed to be doing with these cars? Do 
we say safety first, so spend all the money on that or is a 
safety board or safety standard going to be any good to us if 
it doesn't also give us things we must do pending the state of 
the art recommendation that you also must give?
    Mr. Rogoff?
    Mr. Rogoff. If you recall, Ms. Norton, I was present at the 
hearing you had with the NTSB Chair, Debbie Hersman, at that 
time, and got to hear your dialog with her on this issue.
    It has been the longstanding, statutory responsibility of 
the NTSB to put forward safety recommendations. They put 
forward those recommendations frankly without regard for cost. 
That has been the model we have set up with the independent 
NTSB. Those recommendations are not binding on any of the 
agencies, be it the FAA, the FTA.
    Ms. Norton. Nowhere in the statute does it say the only 
thing you can do is issue a regulation without regard to cost.
    Mr. Rogoff. That is how the NTSB model has evolved. My 
agency doesn't even have the authority right now to do this, 
but that is what the statutory proposal is about that we are 
discussing. In the situation of FAA, NHTSA or FMCSA where the 
NTSB has made the recommendation that the agency that does 
regulate does not find it to be cost effective, what often 
happens is they do not regulate in the area and the NTSB does 
what is called a closed unacceptable response.
    One of the things I have had to face in contemplating the 
possibility that Congress may go forward and give us the 
authority to do transit regulation in this area is I will join 
the ranks of the other modes in periodically having a closed, 
unacceptable response because we will have to bring cost 
benefit analysis to bear on these regulations, notwithstanding 
the adamancy of the NTSB that this is the gold standard for 
safety, we may not be able to get there in a fiscally 
constrained, reality-based assessment.
    We take our safety responsibilities very seriously but we 
also have to take into account the available financing to the 
agencies we regulate.
    Ms. Norton. Would you just close and say they don't have 
the money, so there is nothing we can do? We now have a case in 
point where that is exactly what was done. I am asking you is 
that the only alternative that is going to be left to us?
    Mr. Rogoff. Specifically with WMATA, we are looking at the 
new authorization as the path forward and we have been very 
adamant with WMATA in saying the Administration may be in a 
position to support those funds so long as they are spent on 
the greatest safety needs and not just go into the core system 
without attention to safety.
    Ms. Norton. You are not going to spend money on funds to 
replace cars in California, Mr. Rogoff. You really need to face 
this. Perhaps you don't have an answer yet, but you need to 
face the fact that there is not a State in the Union that can 
replace anything now or anytime in the near future.
    I need to know whether you think in order to have a safety 
standard one needs to look at the state of the art and at some 
other thing you must at least do rather than close the case.
    Mr. Rogoff. Absolutely. As I said, when you go through cost 
benefit analysis, you also need to take a look at what is the 
reality on the ground in terms of their ability to achieve this 
standard. We could have lead encased railcars. There is no 
value in it. They would be very crash worthy but they wouldn't 
do much for transit and move people very quickly.
    The other thing of which we have to be mindful, as I said 
earlier in the hearing, is 40 to 50 percent of their capital 
investment money is Federal money, their Federal grants. We 
have to be mindful of the fact that we are compensating them 
for half the investment. That will be essential to our thinking 
also and that is why we envision a regulatory regime that 
really comes in at the 10,000 foot level and say what is the 
most acute safety issue of this agency first and then have them 
attend to it.
    Ms. Norton. Mr. Millar.
    Mr. Millar. Ms. Norton, as you and I have talked before, we 
think the general approach you are contemplating in your 
legislation is a good one. We have expressed to you concern 
that we would hope NTSB, if that is the way the Congress 
chooses to go, would be required to consult with outside 
expertise because it is a very technical area.
    If I might say, a moment ago you had a conversation going 
here about structural safety standards of rail cars. I wanted 
to participate in that.
    Ms. Norton. Go ahead.
    Mr. Millar. Within the last year in 2008, the American 
Society of Mechanical Engineers had issued both a safety 
standard for light rail vehicles as well as heavy rail 
vehicles. We should be aware such things exist, but you are 
quite right, it is a moving target. Even if we have them at one 
moment, we will learn things over the coming years. We will 
always need to be improving those, so we will always be in a 
situation where some of the cars in a fleet will be at a lower 
standard than the newest cars are. Nonetheless, I do think it 
is important for the Committee to realize those standards do 
exist. As I said in my testimony, we would hope that such 
standards as are existent, would be used as the basis for the 
new program going forward.
    Ms. Norton. Thank you for that intervention, Mr. Millar. I 
want to thank the APA for going ahead, even though there are no 
standards. Here is an outside organization without a dime in 
that dollar and that is the only thing I have heard that is 
ready to be served.
    Mr. Millar was referring to the fact that I was so 
distressed at the testimony Mr. Rogoff remembers that the union 
had gone ahead and suggested something that Metro had 
immediately done, that to the contrary NTSB had simply 
continued to say go get some money which would amount to 
millions upon millions of dollars until we had this accident.
    The piece of legislation that Mr. Millar is referring to, I 
am going to ask Mr. Rogoff to take a look at because I think he 
sees the nuance I am after and he is unwilling, apparently, to 
simply close the book and just be what the NTSB has been 
perhaps because it thought that is what it had to do.
    He talks about reality-based safety standards. If an 
agency, Mr. Rogoff, is left with only the gold standard, where 
gold standards are even when they are not costly met, many of 
us fear we are just on to another bureaucratic set of 
regulations. We do believe the Federal Government and the State 
agencies you would authorize be developed here cannot be held 
responsible for saying do something that isn't safe.
    We also know there are ways to make sure that the gold 
standard is always out there and there is the expertise, if we 
develop this system, to say, for example, whether or not you 
shouldn't put 1970s cars as the lead cars. One can say in a way 
to indicate this is not crash worthy, but we know what is 
absolutely crash prone. We know it from this accident as if we 
set up a case in point. That is often how they find out whether 
something is crash worthy, they crash something.
    Guess what folks? We crashed some people in this region, so 
we know something about those 1970s cars. What is coming out 
now about the 1980s or 1990s cars gives us no comfort, but we 
think one would have to be blind and that is what we think the 
NTSB was, blind when it kept just saying the same thing by 
rote, so that Metro didn't even hear them anymore. Why should 
they have? They didn't have a dime to move forward on.
    Mr. Clark.
    Mr. Clark. A couple of thoughts. I think this is actually 
the opportunity--I have not seen the bill so I have not 
examined it in detail--I think it is an opportunity to step up 
safety in rail transit by, first of all, the Federal Government 
saying there is an expectation of a safety culture within any 
organization that accepts Federal money to build a rail transit 
system.
    I don't know if this bill puts in safety performance 
standards that say essentially that you are not going to get 
anymore money for extensions unless you maintain that which you 
have.
    Ms. Norton. However, you did hear Ms. Siggerud say that the 
Federal Government seldom carries that out, they actually deny 
money and I will tell you, California will be up here knocking 
on our doors. That is a nuclear standard to say you don't get 
your transportation money.
    Mr. Clark. The only option that exists now is to cut off 
all transportation funding to the State or cut off a certain 
percentage of it for all projects in the State. I am talking 
about a much more surgical approach.
    Ms. Norton. Well, cut it off for Metro. Thanks a lot.
    Mr. Clark. That is not what I am saying. I am saying that 
instead of giving money for building a new extension, we will 
give you some money to improve your system because we know, 
because we are an agency paying much more attention, speaking 
for the FTA and not myself.
    Ms. Norton. Out of your existing funds, that also would 
produce a plethora of lobbying, but I can see what you are 
saying. You wouldn't cut off funds, but you would say don't 
come to us for a new extension when you can't even tell us that 
you are operating safely?
    Mr. Clark. Or we are going to pen this one and we think you 
need some more money in this direction, in the safety direction 
instead because we now have the expertise because we have 
gathered the data that we didn't have before the Federal 
Transit Administration was not as far into the safety game as 
it is now.
    Ms. Norton. I must tell you, Mr. Clark, I like financial 
incentives. Something approaching it until my good friends 
across the aisle wouldn't let us do this kind of thing anymore, 
but you do remember the 50 mile a hour, the hooking of 
transportation infrastructure funds to reduction in the miles 
per hour. We had enormous savings in lives as a result.
    I can tell you I was on the Committee at the time, and 
people rushed to meet that. I don't know if they thought we 
would cut off all their funds. Mr. Rogoff, do you remember what 
we said we would do?
    Mr. Rogoff. That was under Chairman Howard of New Jersey, I 
think, and there was a sanction on Federal aid obligation 
funding, their core highway formula funds if they averaged 
higher than a certain amount over the speed limit. It was 
eventually repealed.
    Ms. Norton. It was. Would you take a look at that, by the 
way, because what Mr. Clark is saying about incentives that in 
fact are incentives as opposed to straight out penalties which 
we have never been able to somehow do and is, of course, the 
last thing anybody would want to do. If we take a look at some 
of what we have already done, perhaps what Mr. Clark is 
speaking about, it would be helpful.
    My major concern is you are going to have to say something, 
Mr. Rogoff. If, in fact, you believe there is something less 
than spending money, the ultimate expertise is going to be you 
because if the States say they are going to do something and it 
isn't up to what you think is safe, you are going to have to 
speak out. I don't see how this cup can pass from the Federal 
Government.
    If in fact the state of the art, go out and spend a lot of 
money is not possible for the Federal Government much less for 
the States, then somebody is going to have to advise the 
States, perhaps through Mr. Millar's long expertise at the 
APTA, a non-governmental institution which has not failed to 
say spend a lot of money but also has expertise about what you 
should do if you don't have a lot of money.
    Unless we are willing to do that, what we are doing here 
seems to me to be the kind of exercise that we have just seen 
fail when it came to the District of Columbia.
    Mr. Rogoff. If I could make two quick points. First, as it 
relates to voluntary standards along the lines of what Mr. 
Millar was talking about, you will find in the legislation that 
we submitted yesterday evening a specific mention of our taking 
a look at voluntary standards as a first step.
    Ms. Norton. What do you mean by voluntary standards?
    Mr. Rogoff. Mr. Millar talked about some standards that 
have been developed. For example, he specifically spoke on the 
area of crash worthiness of vehicles, but there are other 
voluntary standards that both APTA and I believe the Society of 
Mechanical Engineers have come up with. Frankly, roughly half 
of the voluntary standard development at APTA is funded by the 
FTA.
    Ms. Norton. I consider when the FTA will fund that, it 
means these are the standards the FTA accepted.
    Mr. Rogoff. Importantly, these are voluntary standards and 
we need to take a fresh look at them as a regulator. We don't 
necessarily want to regulate in each one of those areas, 
especially where there is widespread industry compliance, but 
we also have to take a fresh look at them. There is a 
difference between a voluntary standard and a Federal 
regulation. We have to be mindful of that.
    The other point I would make along the lines of your 
thinking, Ms. Norton, is that we are trying to give the States 
every tool, financial and otherwise, to boost their capability 
to be a fully trained and adequate partner. We also reserve the 
right in the same legislation to find them inadequate and 
federalize it where we need to.
    Ms. Norton. The legislation is very skillfully drawn in 
that way. Let me suggest to you, I mentioned in my earlier 
questioning how ill prepared I believe the States were to 
accept this responsibility. No one has told them to do, no one 
has given them incentives to do it and they have often decided 
not to spend their money there. Some of them would rather spend 
it straight on the system than in oversight of the system.
    It does seem to me in light of the talk here about 
incentives and penalties that State legislatures are going to 
slow walk you and dare you.
    Mr. Rogoff. They can only slow walk us so long until we 
don't have them as a State partner.
    Ms. Norton. I tell you they can slow you this way. They can 
slow walk you if you don't give them a time frame. You have to 
find a reasonable time frame. Nobody has legislation at the 
State level of the quality of which you are speaking. You have 
to give them a time frame for enacting the appropriate 
legislation, especially since you are funding these agencies. 
You need basically a time frame. States know how to start up 
agencies. You need a time frame. We know exactly when States go 
into session. Let me tell you about time frames. Because we 
waited it out so long, the three States, Maryland, Virginia and 
the District of Columbia could not get this money unless they 
put up an equivalent amount of money. We had no dedicated 
system, so that means they had to come up with a system where 
if we were putting $150 million every year for ten, you have to 
also.
    The District jumped in to do it first. It took Virginia and 
Maryland some time to do it and only when they saw we really 
were serious near the very end of this period did they finally 
come in with their funds. Since you are paying for it, all you 
need to do is say the time frame is, you would know better than 
I, two legislative sessions to get it done and the start up 
time frame should be less than that because States, it seems to 
me, know how to start up an agency or else we are going to be 
waiting a very long time for anything to happen.
    Mr. Rogoff. Ms. Norton, the legislation does have an 
explicit three year time frame in the bill.
    Ms. Norton. For the whole thing to be in place?
    Mr. Rogoff. At the end of three years, we would begin 
making judgments as to whether the State system is adequate. In 
that interim period, we would seek to try and boost their 
strength through Federal funding.
    Ms. Norton. I think that is excellent.
    Mr. Chipkevich, it is you from the NTSB. You heard me speak 
about the NTSB. I didn't really mean to criticize the NTSB as 
such. I think you read your mandate as being you had better 
tell these people what they should do. You don't have any 
overall standards either. You go in, you study and as a result 
of that study, you come out with standards. You don't have 
crash worthy standards unless you are adopting what Mr. Millar 
does. I wasn't suggesting that you should somehow have had a 
whole set of steps. You haven't even been an enforcement 
agency. I am not sure what the NTSB is. It is almost cruel and 
unusual punishment to send some folks who act like cops and 
cannot arrest somebody, if you will forgive the analogy.
    Mr. Chipkevich, that is the position you were put in. You 
didn't have any basis to say what crash worthy standards were, 
you had no basis to tell the agencies what to do and yet you 
had to go in there and act like you were a copy when everyone 
knew you weren't. You were ignored, at least in this region. Do 
you have any comments on that characterization?
    Mr. Chipkevich. I would note that the NTSB is charged with 
the responsibility to investigate accidents independently, to 
look at the cause of the accident and to look for 
recommendations to prevent future accidents.
    Ms. Norton. You do a very good job of that.
    Mr. Chipkevich. Thank you.
    From our accident investigation, we found areas where we 
think improvements are needed such as establishing Federal 
standards for crashworthiness of cars so that cars built in the 
future will perform better in accidents; for event recorders to 
be installed on cars so not only the NTSB but transit agencies 
can understand the circumstances of an accident better and look 
for areas in which to make improvements; and for track safety 
improvements and standards. As we saw in the Chicago transit 
accident, there was a lack of adequate inspection of the track 
and oversight to make sure deficiencies were repaired.
    Improvements need to be made in the area of fatigue 
management, by making sure there are fatigue management 
programs across the Nation at the different transit agencies to 
be sure that the operators of the trains have adequate rest. 
Also, we have seen collisions at other locations in the country 
where operators failed to comply with operating rules. We felt 
there needs to be adequate oversight to be sure that there are 
good operating standards and requirements in place at the 
transit agencies and that there is adequate oversight to be 
sure train operators are complying with those standards.
    We found that there are big differences between the various 
locations in the country in terms of State oversight to be sure 
that these types of safety issues are being addressed. We 
support legislation for the FTA to have authority and to also 
allow the States to do those inspections where they have the 
capability to be sure that certain standards are met.
    Ms. Norton. I must say I want to make clear in 
characterizing the position that the NTSB was left in, I 
certainly don't mean to imply that an investigative agency 
ought to be an enforcement agency. That has to be, just as it 
is today, the agency that looks at the accident has a look at 
the accident, period. Who enforces it is an entirely different 
matter.
    Mr. Chipkevich, you have to go from airlines to buses, to 
subways. Have you had occasion in any of your work to look at 
the voluntary standards such as those Mr. Millar spoke about? 
Have they been useful to you?
    Mr. Chipkevich. Voluntary standards that are developed 
within the industry can be good standards, but the problem is 
they can't be enforced by either a State or a Federal agency. 
Therefore, if it is really a good standard, those standards can 
be incorporated by reference into Federal regulations or State 
regulations. It is important. We think there are some good 
standards out there and they can be incorporated--then there 
can be actual use of those standards.
    Ms. Norton. Mr. Clark, did you have something you wanted to 
say before we close?
    Mr. Clark. I just wanted to say that we do incorporate into 
our regulations APTA standards and other standards when we feel 
they are appropriate.
    Ms. Norton. I think that is very important to understand. 
It is not as if the States have been left out there with no 
reference. Frankly, Mr. Millar, without what you have done and 
a number of others, I am not sure what the States would have 
done. No one has the capacity on his own to dream up what would 
be the best thing to do. That is what the Federal Government is 
here for.
    I want to thank all of you. You certainly have helped me 
understand how to go. I can't thank the Administration enough. 
We were left here without any sense of anything except we had 
to move and that is why this region introduced a bill that 
would begin to regulate.
    By far, the best way to do it is through an Administration 
that has the purview over the entire country that can 
realistically put before us legislation that can be passed. I 
much appreciate what the Administration has done. I must say 
for these witnesses, you have immensely educated this Member 
and I believe all of those who were here.
    Finally, I want to thank the Chairman of this Subcommittee. 
We are about to go out of session if the Senate would let us, 
but the Chairman of this Subcommittee saw this matter as of 
such importance to the Nation that even before we go out of 
session, he has held this hearing which I think helps to speed 
along what the Administration is doing.
    Thank you again for your testimony today.
    The Committee is adjourned.
    [Whereupon, at 12:55 p.m., the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 53951.022
    
    [GRAPHIC] [TIFF OMITTED] 53951.023
    
    [GRAPHIC] [TIFF OMITTED] 53951.024
    
    [GRAPHIC] [TIFF OMITTED] 53951.025
    
    [GRAPHIC] [TIFF OMITTED] 53951.026
    
    [GRAPHIC] [TIFF OMITTED] 53951.027
    
    [GRAPHIC] [TIFF OMITTED] 53951.028
    
    [GRAPHIC] [TIFF OMITTED] 53951.029
    
    [GRAPHIC] [TIFF OMITTED] 53951.030
    
    [GRAPHIC] [TIFF OMITTED] 53951.031
    
    [GRAPHIC] [TIFF OMITTED] 53951.032
    
    [GRAPHIC] [TIFF OMITTED] 53951.033
    
    [GRAPHIC] [TIFF OMITTED] 53951.034
    
    [GRAPHIC] [TIFF OMITTED] 53951.035
    
    [GRAPHIC] [TIFF OMITTED] 53951.036
    
    [GRAPHIC] [TIFF OMITTED] 53951.037
    
    [GRAPHIC] [TIFF OMITTED] 53951.038
    
    [GRAPHIC] [TIFF OMITTED] 53951.039
    
    [GRAPHIC] [TIFF OMITTED] 53951.040
    
    [GRAPHIC] [TIFF OMITTED] 53951.041
    
    [GRAPHIC] [TIFF OMITTED] 53951.042
    
    [GRAPHIC] [TIFF OMITTED] 53951.043
    
    [GRAPHIC] [TIFF OMITTED] 53951.044
    
    [GRAPHIC] [TIFF OMITTED] 53951.045
    
    [GRAPHIC] [TIFF OMITTED] 53951.046
    
    [GRAPHIC] [TIFF OMITTED] 53951.047
    
    [GRAPHIC] [TIFF OMITTED] 53951.048
    
    [GRAPHIC] [TIFF OMITTED] 53951.049
    
    [GRAPHIC] [TIFF OMITTED] 53951.050
    
    [GRAPHIC] [TIFF OMITTED] 53951.051
    
    [GRAPHIC] [TIFF OMITTED] 53951.052
    
    [GRAPHIC] [TIFF OMITTED] 53951.053
    
    [GRAPHIC] [TIFF OMITTED] 53951.054
    
    [GRAPHIC] [TIFF OMITTED] 53951.055
    
    [GRAPHIC] [TIFF OMITTED] 53951.056
    
    [GRAPHIC] [TIFF OMITTED] 53951.057
    
    [GRAPHIC] [TIFF OMITTED] 53951.058
    
    [GRAPHIC] [TIFF OMITTED] 53951.059
    
    [GRAPHIC] [TIFF OMITTED] 53951.060
    
    [GRAPHIC] [TIFF OMITTED] 53951.061
    
    [GRAPHIC] [TIFF OMITTED] 53951.062
    
    [GRAPHIC] [TIFF OMITTED] 53951.063
    
    [GRAPHIC] [TIFF OMITTED] 53951.064
    
    [GRAPHIC] [TIFF OMITTED] 53951.065
    
    [GRAPHIC] [TIFF OMITTED] 53951.066
    
    [GRAPHIC] [TIFF OMITTED] 53951.067
    
    [GRAPHIC] [TIFF OMITTED] 53951.068
    
    [GRAPHIC] [TIFF OMITTED] 53951.069
    
    [GRAPHIC] [TIFF OMITTED] 53951.070
    
    [GRAPHIC] [TIFF OMITTED] 53951.071
    
    [GRAPHIC] [TIFF OMITTED] 53951.072
    
    [GRAPHIC] [TIFF OMITTED] 53951.073
    
    [GRAPHIC] [TIFF OMITTED] 53951.074
    
    [GRAPHIC] [TIFF OMITTED] 53951.075
    
    [GRAPHIC] [TIFF OMITTED] 53951.076
    
    [GRAPHIC] [TIFF OMITTED] 53951.077
    
    [GRAPHIC] [TIFF OMITTED] 53951.078
    
    [GRAPHIC] [TIFF OMITTED] 53951.079
    
    [GRAPHIC] [TIFF OMITTED] 53951.080
    
    [GRAPHIC] [TIFF OMITTED] 53951.081
    
    [GRAPHIC] [TIFF OMITTED] 53951.082
    
    [GRAPHIC] [TIFF OMITTED] 53951.083
    
    [GRAPHIC] [TIFF OMITTED] 53951.084
    
    [GRAPHIC] [TIFF OMITTED] 53951.085
    
    [GRAPHIC] [TIFF OMITTED] 53951.086
    
    [GRAPHIC] [TIFF OMITTED] 53951.087
    
    [GRAPHIC] [TIFF OMITTED] 53951.088
    
    [GRAPHIC] [TIFF OMITTED] 53951.089
    
    [GRAPHIC] [TIFF OMITTED] 53951.090
    
    [GRAPHIC] [TIFF OMITTED] 53951.091
    
    [GRAPHIC] [TIFF OMITTED] 53951.092
    
                                    

</pre></body></html>
